<html>
<title> - OVERSIGHT HEARING ON PFIESTERIA AND ITS IMPACT ON OUR FISHERY RESOURCES</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
OVERSIGHT HEARING ON PFIESTERIA AND ITS IMPACT ON OUR FISHERY RESOURCES

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                    OCTOBER 9, 1997, WASHINGTON, DC.

                               __________

                           Serial No. 105-63

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 46-477 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       NEIL ABERCROMBIE, Hawaii
WAYNE T. GILCHREST, Maryland         SOLOMON P. ORTIZ, Texas
WALTER B. JONES, Jr., North          FRANK PALLONE, Jr., New Jersey
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
                Christopher Stearns, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held October 9, 1997.....................................     1

Statement of Members:
    Castle, Hon. Michael N., a Representative in Congress from 
      the State of Delaware......................................     4
    Clayton, Hon. Eva M., a Representative in Congress from the 
      State of North Carolina....................................     3
        Prepared statement of....................................     3
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
    Jones, Hon. Walter B., a Representative in Congress from the 
      State of North Carolina....................................     2
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, prepared statement of...........................     6

Statement of Witnesses:
    Anderson, Donald M., Senior Scientist, Department of Biology, 
      Woods Hole Oceanographic Institution, prepared statement of   195
    Baden, Daniel, Director, National Institute of Environmental 
      Health Sciences, Marine and Freshwater Biomedical Science 
      Center.....................................................    32
        Prepared statement of....................................    60
    Boesch, Donald, President, Center for Environmental Science, 
      University of Maryland.....................................    11
        Prepared statement of....................................    59
    Burkholder, JoAnn M., Associate Professor, North Carolina 
      State University...........................................     9
        Prepared statement of....................................    78
    Clark, Jamie Rappaport, Director, United States Fish and 
      Wildlife Service, Dept. of the Interior, prepared statement 
      of.........................................................   203
    Dove, Rick, Neuse River Keeper, Neuse River Foundation.......    42
        Prepared statement of....................................   167
    Garcia, Terry D., Acting Assistant Secretary of Commerce for 
      Oceans and Atmosphere, Department of Commerce, accompanied 
      by Donald Scavia, Director, NOAA Coastal Ocean Program, and 
      John Steven Ramsdell, Associate Professor, Marine 
      Biomedical and Environmental Sciences, Medical University 
      of South Carolina..........................................     6
        Prepared statement of Terry D. Garcia....................    63
    Griffin, John, Secretary, Maryland Department of Natural 
      Resources..................................................    34
        Prepared statement of....................................    97
    Immanuel, Henry Werner Meseke, Elliott, Maryland, prepared 
      statement of...............................................   192
    McDevitt, Wayne, Secretary, North Carolina Department of 
      Environmental and Natural Resources........................    38
        Prepared statement of....................................   109
    Perciasepe, Robert, Assistant Administrator, Office of Water, 
      U.S. Environmental Protection Agency, prepared statement of   179
    Schaefer, Dr. Mark, Deputy Assistant Secretary for Water & 
      Science and Acting Director, U.S. Geological Survey, 
      Department of the Interior, prepared statement of..........   198
    Tulou, Christophe A. G., Secretary, Delaware Department of 
      Natural Resources and Environmental Control................    40
        Prepared statement of....................................   162
    Wright, L. Donelson, Dean and Director, Virginia Institute of 
      Marine Science, accompanied by Eugene M. Burreson, Director 
      for Research and Advisory Services, Virginia Institute of 
      Marine Science.............................................    13
        Prepared statement of L. Donelson Wright.................    90



OVERSIGHT HEARING ON PFIESTERIA AND ITS IMPACT ON OUR FISHERY RESOURCES

                              ----------                              


                       THURSDAY, OCTOBER 9, 1997

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:08 a.m., in 
Room 1334, Longworth House Office Building, Hon. Jim Saxton 
[chairman of the Subcommittee] presiding.
    Members present: Representatives Saxton, Gilchrest, and 
Jones.
    Also present: Representatives Clayton and Castle.
    Mr. Saxton. [presiding] Good morning. The Subcommittee on 
Fisheries Conservation, Wildlife and Oceans will come to order.
    The purpose of this oversight hearing is to discuss the 
status of the Federal research incentives into Pfiesteria and 
the need for further investigation. The Subcommittee will also 
focus on scope of the harmful algal blooms and marine toxins 
that have been identified in other regions.
    In particular, today's witnesses have been requested to 
address the scope of these harmful alga blooms, what ocean and 
estuarine conditions are necessary for the proliferation of 
these organisms, what ocean conditions are required for the 
organisms to enter the toxic phase, the ability of scientists 
to detect or predict outbreaks of these organisms, and whether 
a sufficient amount of research is being conducted to formulate 
solutions to these problems.
    In addition, the Subcommittee will focus on the current 
coordination among Federal agencies and with State agencies in 
plans for future joint efforts, especially among researchers. 
Federal resources are already being targeted to address the 
Pfiesteria outbreak, and I look forward to hearing from our 
distinguished witnesses on how Federal funding can be 
effectively used to deal with these marine organisms.
    The Ranking Member isn't here at the moment, although I am 
sure he will be shortly, and I know he is interested in this 
issue. Let me turn at this point to the gentleman from the 
eastern shore of Maryland, Mr. Gilchrest.

   STATEMENT OF HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Thank you, Mr. Chairman. I appreciate the 
fact that you're holding this hearing, and I also welcome all 
of the witnesses. We look forward to your testimony.
    This is a phenomenon that is serious in that it has caused 
physical harm to humans, it's my understanding. It's also 
serious from an economic perspective, but I would also comment 
that I think it is fascinating that this phenomenon has drawn 
such national attention, so that many more people other than 
the scientists in a lab will have some understanding of the 
nature of the mechanics of natural processes, and how they work 
in their natural habitat, and then how they work in their 
natural habitat impacted by human activity. And it's my 
understanding as a nonscientist that the potential impacts and 
the potential changes in natural organisms is, from a molecular 
structure, very difficult to predict, and probably there's an 
infinite number of possibilities.
    So as we deal with this as nonscientists, we hope that you 
will help us draw a clearer picture of what we as people can do 
to try to resolve these issues, reduce human activity that 
perhaps has caused these, and head down the right direction. So 
we appreciate the fact that we know all of you are very busy, 
and we appreciate that you have come in here to address us 
today.
    Thank you, Mr. Chairman.
    Mr. Saxton. Thank you. I thank the Ranking Member.
    Let me just ask unanimous consent at this point that two 
Members who are here this morning who are not members of this 
panel--let me ask unanimous consent that Mr. Castle and Ms. 
Clayton be invited and permitted to join us on the panel.
    Mr. Jones, would you like to make your opening comments?

STATEMENT OF HON. WALTER B. JONES, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Jones. Yes, thank you, Mr. Chairman. I'd join and 
associate myself with the statement made by the gentleman from 
Maryland, Mr. Gilchrest, that I very much appreciate you and 
the staff allowing this hearing to take place today, because it 
is an extremely serious problem in my district, as well as the 
district of Mrs. Clayton, because we share many of the same 
counties.
    And it's gotten to a point that the people of eastern North 
Carolina that live along the waterways are very frustrated 
because we have seen this problem become worse each month and 
each year, to the point that it has become extremely 
detrimental to our packing houses that pack crabmeat, that sell 
to the North. Many of our industries, commercial fishing 
industries, are beginning to feel the economic problems that 
come when your sales drop. And, in addition, tourism in eastern 
North Carolina has been adversely affected by this Pfiesteria 
problem that has been growing in our region of the State.
    So I really very much appreciate the opportunity to hear 
from the scientific community, as well as those from the State 
of North Carolina, as well as a gentleman that will speak with 
the second panel, Mr. Chairman, that has been so concerned 
about the Neuse River, which is in my district, that he has 
taken this cause on himself. I'm delighted that Rick Dove is 
here.
    And so, with that, Mr. Chairman, I look forward--like the 
gentleman from Maryland, I have a lot to learn. I want to see 
what the Congress can do to work with the States to see if we 
can find a solution to the problem. So, again, I thank the 
witnesses for being here today, the panel, and we look forward 
to learning from you. And thank you very much.
    Mr. Saxton. I thank the gentleman from North Carolina for 
his comments.
    Ms. Clayton, do you have a statement that you'd like to 
make?

STATEMENT OF HON. EVA M. CLAYTON, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Ms. Clayton. Yes, I do, and I ask unanimous consent to put 
my full statement into the record.
    Mr. Saxton. Without objection.
    [The prepared statement of Ms. Clayton follows:]

Statement of Hon. Eva M. Clayton, a Representative in Congress from the 
                        State of North Carolina

    Good morning. I would like to thank Chairman Saxton and 
Ranking Member Abercrombie for permitting me to participate. 
Pfiesteria is of great concern to North Carolina as the State 
has over 2.3 million acres of estuary--more than any other 
Atlantic Coast State. Estuaries play a critical role in the 
life cycle of marine fisheries as many commercial species feed, 
spawn and nurture their young there.
    Pfiesteria has plagued North Carolina for many years, and 
experts now think that this organism was first observed in our 
waters almost twenty years ago in 1978.
    While the Old North State has made multiple efforts to 
address this pestilence, through estuary studies, nondischarge 
rules, phosphate bans, rapid response teams, nitrogen load 
reductions, nutrient limit reductions, source wetland 
restoration programs and a two-year moratorium on new or 
expanding swine farms; Pfiesteria is an enigma for us all as it 
has been found in many Atlantic waters, from the Chesapeake Bay 
south to Florida and west to Texas.
    Fishing is an industry of great importance to North 
Carolina, with 7,000 licensed fishermen and over a billion 
dollars in revenue yearly. In 1995 alone, commercial fishermen 
landed over 177 million pounds of fish, with a value of over 
$112 million dollars.
    In the area I represent, while the amounts are not as high 
as those in the district of my colleague from North Carolina, 
Walter Jones, who serves on this Subcommittee--the amount of 
fish landed in the seven coastal counties of North Carolina in 
the First Congressional District (Beaufort, Bertie, Chowan, 
Craven, New Hanover, Paquotank and Pender) was over 21 million 
pounds with a value over $10 million dollars--11 percent of the 
entire state total.
    Thus, the impact of Pfiesteria upon the fishing industry, 
in North Carolina and other coastal states--is significant as 
many of the affected counties derive most of their income from 
tourism and fishing, and most are severely economically 
disadvantaged to begin with.
    It is imperative that we work together constructively and 
effectively, Federal, state and local governments and agencies, 
academic researchers, and concerned citizens--to attack and 
find rapid and workable solutions to this predicament.
    I am pleased to note that two North Carolinians will be 
testifying today, the Honorable Wayne McDevitt, the Secretary 
of the North Carolina Department of Environment and Natural 
Resources and Dr. JoAnn Burkholder, who we proudly claim in 
North Carolina, from North Carolina State University.
    Through her diligent research, we now know a great deal 
about the organism itself and its life cycle. All of us owe her 
a debt of gratitude for her tireless work, which put her at 
great physical risk for illness.
    Now, it is time to fund additional work for Dr. Burkholder, 
and other scientists and researchers like her, in order to 
answer the remaining questions regarding the effects of 
Pfiesteria on humans, animals and watersheds.
    The waters of North Carolina have certainly felt the 
effects of Pfiesteria outbreaks, especially in the Neuse River, 
the Tar River, the Pamlico River as well as the entire 
Albemarle-Pamlico Estuary, parts of which are in my 
Congressional District. There have been more than a million 
fish killed in our State and many reports of human health 
problems.
    Given the adverse impact of such significant fish kills 
upon my District, North Carolina and the Mid-Atlantic, we need 
to seek solutions through aggressive research.
    Mr. Chairman, we face a very serious threat that must be 
addressed immediately. We should not rush to judgement, 
however. Scientific inquiries are ongoing, but we should not 
waste time. Further research and testing should be undertaken 
at once.
    It is my hope that funding for critically-needed research 
and testing will come as a result of today's hearings. Only 
through funding will come opportunities for solutions.
    All North Carolinians that live, work and recreate in the 
affected waters, share that hope. Their lives and livelihoods 
depend upon it.
    I was able to insert language into the House Agriculture 
Forestry, Resource Conservation and Research Subcommittee 
version of H.R. 2154, the Agricultural Research, Extension and 
Education Reauthorization Act of 1997, to authorize the use of 
research and extension grants to study the impact of Pfiesteria 
and other microorganisms that pose threats to human and animal 
health upon aquatic food webs.
    Thanks again to Chairman Saxton and Ranking Member 
Abercrombie for allowing me to participate.

    Ms. Clayton. And I want to express appreciation to you, 
Chairman Saxton, for affording me the courtesy to appear and to 
welcome your convening this meeting and how important it is for 
people in my district. I joined with Congressman Jones, and he 
has more than I, but it's certainly a substantial number of our 
counties, at least five of my counties, and about eight of his 
counties are engaged in this. Fisheries is an important 
industry in our area, and therefore, anything that affects its 
economic health is a serious implication to the opportunity of 
economic survival in that area.
    It has grown in our area, but equally important to this 
whole problem is the potential for human health, and we do not 
want to diminish what that means. We don't want to be quick to 
judgment, but we do want to say that we must act, and we must 
act in a careful, but cautious way, but not so cautious that we 
are afraid to pursue.
    I have been involved in trying to get our agricultural 
community involved, and Pfiesteria, for the first time, will 
now be a part of its research agenda that we got introduced 
into the legislation.
    So, Mr. Chairman, I welcome what Members will be saying, 
individuals will be saying to the members of this Committee, 
and I want to welcome two of our North Carolinians who are 
here, who will make presentation, testimony, later.
    Thank you.
    Mr. Saxton. Thank you very much.
    Mr. Castle, do you have some comments?

   STATEMENT OF HON. MICHAEL N. CASTLE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF DELAWARE

    Mr. Castle. Thank you, Mr. Chairman. Thank you for a couple 
of things. One, for my return to this room. I was on the 
Merchant Marine and Fisheries Committee before they abolished 
it, and this is a pleasant room to come back to. Maybe we 
should have kept it going, everything considered.
    And I would like to thank you very much personally for 
listening to some of us who wanted this hearing in responding 
dramatically quickly, for Congress at least. We are very 
appreciative of that. I'd also like to thank Mr. Gilchrest, who 
I think has been a strong leader on this subject for some time.
    I first came into contact, not directly but hearing about 
it, with--thank God, from what I've heard [Laughter]--with 
Pfiesteria in 1987, when I was the governor of Delaware. We had 
a massive fish kill in the Indian River Bay, just off the 
Atlantic Ocean, and it actually turned the waters mahogany 
brown. It hit every species of fish in that particular 
waterway, and eventually--and it was sort of after the fact--it 
was linked to Pfiesteria.
    This summer, again, we had tainted fish appearing off of 
Cape Henlopen and the Indian River and in the inland bays, and 
for people in Washington, that's in the Rehobeth area. That's 
what they identify with here in Washington; they all go there. 
And these are major fishing and recreational areas for 
Delawareans. It's not absolutely certain what that was, but it 
was a concern.
    This, obviously, is not just a problem in Delaware. It's a 
problem in North Carolina; it's a problem in Maryland; it's a 
problem as far north as potentially New Jersey/New York and on 
down the coast. And I thought from the very beginning, when I 
started hearing about this this year, that we needed a national 
focus on this. We need a national coordinated effort by a lot 
of those various groups and agencies who are before us here 
today, by State and Federal agencies with vital input from 
researchers to work with the public to determine what the 
problems are and how to correct them. This is new to a lot of 
people.
    And I believe that Congress has really stepped forward and 
played a major role in the Pfiesteria discussion, and I am 
pleased with this hearing, which I think continues that. I 
think that some of the responses have been positive in terms of 
action, too. We've appropriated $11 million in funding to 
various Federal agencies, many of which we're going to hear 
from today, to study the causes, effects, and solutions, and 
effects on human beings' health, I might add, to the Pfiesteria 
phenomenon. And, indeed, this is the second congressional 
hearing which we have had on this subject.
    This is a serious problem. We've heard about tourism here 
today. We all know that the sale of fish is down in certain 
areas, maybe even broader than certain areas in the United 
States of America. I have heard firsthand from Dr. Burkholder, 
who's going to testify today, just last week when she was kind 
enough to spend a good deal of time in Delaware, about the 
effects and impact on a research assistant of hers. There 
potentially is a human health problem here. We really don't 
know what the extent of all of this is, and most of us in 
Congress are not scientists--there are a few scientists in 
Congress; I'm not one of them, but they're there. And we really 
need to learn as much as we possibly can, so that we can 
coordinate the regional and national effort to try to resolve 
the problems which exist.
    So we really do appreciate you being here. We really are 
listening to you, and we are trying to move as rapidly as 
possible. And I will have a chance to mention him later, but 
Christophe Tulou is here, who used to work right here on 
Capitol Hill, and he's Delaware's Secretary of Natural 
Resources and Environmental Control, and has also taken a 
strong interest in this issue. We're pleased to have him here 
as well.
    And I look forward to the hearing. Thank you, Mr. Chairman.
    Mr. Saxton. Thank you, Mr. Castle.
    Let me ask unanimous consent at this point that Mr. Young's 
statement be placed in the record, and, additionally, that all 
of the Subcommittee members be permitted to include their 
opening statements in the record at this point. Without 
objection.
    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    Mr. Chairman, I appreciate your holding this hearing today 
on Pfiesteria and other harmful marine algal blooms. As many 
Members are aware, these algal blooms have been detected in our 
coastal waters for decades and have been seen from Florida to 
my own State of Alaska.
    While the outbreaks of Pfiesteria near our Nation's Capital 
have highlighted this problem, it is not an isolated one. 
Congress has responded by amending appropriation bills to fund 
Pfiesteria research. What we need to do is make sure that all 
of the increased funding does not get focused only on the 
immediate problem of Pfiesteria, but is directed to address the 
problem of harmful marine algal blooms in general.
    I appreciate the fears of Members with coastal districts 
which are experiencing this problem for the first time, but 
this is a national problem. It is not effective to throw money 
at individual outbreaks. We should look at the bigger picture 
and fund research into the broader harmful algal bloom issue. 
We need to support coordinated Federal and State peer-reviewed 
research on the marine micro-organisms involved in harmful 
algal blooms across the nation.
    I look forward to learning more about how all of these 
algal blooms are related and whether they all react in the same 
manner. I hope we will also help show that Federal funding 
efforts must be used in a coordinated manner to learn more 
about these micro-organisms and what causes them to become 
toxic to other marine life.
    Thank you, Mr. Chairman.

    [The information follows:]
    Mr. Saxton. Now I would like to introduce our first panel 
of witnesses. Let me say at the outset one of our panelists has 
been delayed because of air traffic, or whatever. Mr. Daniel 
Baden called us an hour or so ago and said that his plane was 
just about to take off from a Florida airport. So we'll hear 
from him later in the day.
    Let me introduce the members of panel one who are with us, 
and we thank you all for being here. We have Dr. Terry Garcia, 
Acting Assistant Secretary of Commerce for Oceans and 
Atmosphere in the Department of Commerce. He is accompanied by 
Donald Scavia, Director of NOAA Coastal Ocean Program; Dr. 
JoAnn Burkholder, associate professor, North Carolina State 
University; Dr. Donald Boesch, president, Center for 
Environmental Sciences, University of Maryland; and Dr. L. 
Donelson Wright, dean and director of Virginia's Institute of 
Marine Science, who is accompanied by Dr. Eugene Burreson, 
director of research and advisory services, Virginia Institute 
of Marine Sciences.
    Let me just mention to each of you that we have those nasty 
little lights there in front of you. They help us stick to what 
we call the five-minute rule, which means that each of you has 
allotted to you five minutes for your oral statements, and of 
course in each case your entire statement will be included in 
the record.
    I would now like to recognize Mr. Garcia for his statement 
at this time.

  STATEMENT OF TERRY D. GARCIA, ACTING ASSISTANT SECRETARY OF 
  COMMERCE FOR OCEANS AND ATMOSPHERE, DEPARTMENT OF COMMERCE, 
  ACCOMPANIED BY DONALD SCAVIA, DIRECTOR, NOAA COASTAL OCEAN 
PROGRAM, AND JOHN STEVEN RAMSDELL, ASSOCIATE PROFESSOR, MARINE 
 BIOMEDICAL AND ENVIRONMENTAL SCIENCES, MEDICAL UNIVERSITY OF 
                         SOUTH CAROLINA

    Mr. Garcia. Thank you, Mr. Chairman. As you noted, I am 
accompanied by Mr. Don Scavia, who's the Director of NOAA's 
Coast-

al Ocean Program, as well as Dr. John Ramsdell from the 
Charleston Laboratory.
    I appreciate this opportunity to discuss NOAA's role in the 
multi-agency response to the Pfiesteria crisis in the 
Chesapeake Bay. Our efforts are focused on research and 
management, both supported by education and outreach. NOAA's 
coastal programs and research laboratories have been conducting 
important research related to harmful algal blooms and 
Pfiesteria, and will continue to do so. NOAA will also continue 
working with the States through our Coastal Zone Management 
Program and the Chesapeake Bay Office, as well as the Beaufort 
and Charleston Labs.
    My written testimony describes in full detail the various 
activities of NOAA and our Federal partners. What I'd like to 
deal with today in my brief oral statement is the larger 
national problem that we are confronting today of harmful 
species that apparently are increasing in abundance and 
intensity in coastal waters, both domestically and 
internationally. These harmful algal blooms, including red 
tides in the Gulf of Mexico and the Southeast, brown tides in 
New York and Texas, and shellfish poisonings in the Gulf of 
Maine, the Pacific Northwest, and Alaska impact nearly every 
coastal state and have been responsible for an estimated $1 
billion in economic losses during the past two decades.
    Blooms have decimated the scallop fishery in Long Island's 
estuaries, killed a billion fish in North Carolina estuaries, 
closed down various shell fisheries on Georgia's bank, and from 
North Carolina to Louisiana, and killed almost 150 Florida 
manatees. These harmful algae have been associated with a 
serious die-off of dolphins along the East Coast in 1987, and 
without effective means to monitor paralytic shellfish 
poisoning, approximately 30,000 miles of Alaskan shellfish 
waters cannot be harvested.
    As we meet here today, Texas is responding to a new red 
tide that stretches along South Padre Island and the Padre 
Island National Seashore, and has killed an estimated 14 
million fish, including Gulf menhaden, scaled sardine, Atlantic 
bumper, and striped mullets, as well as red drum, flounder, and 
sea trout.
    These harmful algal blooms, which include Pfiesteria, are 
composed of naturally-occurring species that, for some reason, 
reproduce out of natural ecosystem balance and appear in 
various forms, all of which can have human health and economic 
effects.
    The increasing coastwide and worldwide trends in bloom 
occurrence and intensities suggest that we must look for common 
underlying causes, including increased nutrient levels in 
coastal waters. It is also important to note that excess 
nutrient loads, particularly nitrogen and phosphorous, are 
responsible for a general overgrowth of algae in many coastal 
ecosystems. While these algaes may not all be toxic, their 
death and subsequent decay can lead to severe oxygen depletion 
in the bottom waters of many estuaries and coastal 
environments.
    In fact, a recent NOAA survey has revealed that at some 
time each year 53 percent of our estuaries experience hypoxic 
conditions, oxygen levels that are low enough to cause 
significant ecological impairment, and 30 percent experience 
anoxia. Those are areas where all of the oxygen is depleted. 
The dramatic hypoxic zone that covers 7,000 square miles in the 
Gulf of Mexico indicates clearly the impact of overfertilized 
marine systems.
    The ultimate solutions to many of the problems we are 
addressing here today, from Pfiesteria to the other toxic algal 
blooms, to severely depleted oxygen, will be based on an 
ability to predict the fate, transport, and impacts of nitrogen 
and phosphorous in coastal watersheds and water bodies. NOAA 
will continue to support the states and other Federal agencies 
in responding to this immediate, urgent problem. However, 
significant and lasting progress will require a comprehensive 
coordinated and integrated strategy to understand the factors 
responsible for high incidences of fish lesions and fish kills 
and for blooms of Pfiesteria and other harmful blooms.
    NOAA and the Environmental Protection Agency are taking the 
lead in developing a national research strategy focused in four 
areas: methods to identify and detect toxins; determining toxic 
pathways and the means to forecast harmful blooms and impacts; 
developing management and mitigation options, including a 
rapid-response capability, and enhancing education and 
outreach. I will submit for the record the eight specific 
objectives of that research plan.
    At the core of this national strategy is a multi-agency 
research program on ecology and oceanography of harmful algal 
blooms, or ECOHAB, which represents the first Federal 
interagency research program focused exclusively on determining 
the factors responsible for blooms of harmful algal in U.S. 
coastal waters. ECOHAB is a partnership among NOAA, the 
National Science Foundation, EPA, and the Office of Naval 
Research.
    The draft national research strategy, which will be ready 
for review by Federal and state agencies and the academic 
community this month, is intended to provide a basis for 
developing control and mitigation strategies through our 
coastal management programs, which will reduce and prevent the 
occurrence of future harmful blooms. As evidence grows that 
these other blooms are stimulated by non-point sources of 
nutrients, our efforts with EPA and the States in the coastal 
zone management non-point pollution control program will be 
critical. For the past seven years, NOAA, EPA, and the coastal 
states have been working to identify programs available to 
address non-point sources of pollution and to ensure that 
appropriate management practices are applied to reduce polluted 
runoff. The development of state coastal non-point programs has 
provided a roadmap of what we need to do, and has identified 
existing tools and areas where more effort must be required.
    The Magnuson-Stevens Fishery Conservation and Management 
Act also provides important tools, including the requirement 
that NOAA identify essential fish habitat and work with the 
fisheries councils to protect essential fish habitat. As we 
move forward in dealing with Pfiesteria and other harmful 
blooms, NOAA will continue to work with the states and 
coordinate Federal research monitoring and assessment; will 
lead the development to National International Agency Program 
that includes research to understand and predict conditions 
favoring Pfiesteria bloom development and toxicity as part of 
the national approach to harmful algal blooms; assessment of 
human health and economic impacts on coastal communities and 
seafood consumers; further development and implementation of 
appropriate measures to control and mitigate these impacts, and 
expanded outreach efforts to ensure that coastal managers and 
the public can make informed decisions dealing with fish kills, 
lesions, and safeguard public safety.
    That concludes my testimony, Mr. Chairman. I'll be happy to 
answer questions at the end of the panel.
    [The prepared statement of Mr. Garcia may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much, Mr. Garcia.
    Dr. Burkholder, we're anxious to hear your testimony.

 STATEMENT OF JOANN M. BURKHOLDER, ASSOCIATE PROFESSOR, NORTH 
                   CAROLINA STATE UNIVERSITY

    Ms. Burkholder. Thank you, sir. The toxic dinoflagellate, 
Pfiesteria piscicida, and at least two other toxic Pfiesteria-
like species that have not yet been named, are one-celled 
animals with complex life cycles and direct attack behavior 
toward fish. The toxic Pfiesteria species complex is known, 
thus far, from the mid-Atlantic and southeastern United 
States--especially from the Albemarle-Pamlico of North Carolina 
and the Chesapeake Bay, which are the largest and second 
largest estuaries on the U.S. mainland.
    The dinoflagellates are usually benign little animals that 
consume other microbes and dissolved organic nutrients. They 
become toxic when they detect high levels of substances 
excreted by fish. Optimal conditions for toxic Pfiesteria 
activity are poorly-flushed, quiet brackish waters, warm 
temperatures, and high nutrient loading from human and animal 
wastes.
    In the past seven years in North Carolina, we've lost more 
than 1 billion finned fish and shellfish from kills and disease 
related to the toxic Pfiesteria complex over large expanses of 
our estuaries. This year, these same dinoflagellates also have 
affected about 50,000 fish from some areas of Chesapeake Bay. 
Pfiesteria piscidia, which is best known, causes open-bleeding 
sore diseases, immune system suppression, and other health 
problems for fish.
    Medical evidence also implicates Pfiesteria piscidia in 
serious human health impacts, especially for people who have 
worked with toxic cultures in the laboratory before we 
discovered that Pfiesteria-like species make airborne toxins 
that we inhale. Some of the effects, such as skin lesions, 
severe headaches, profound learning disabilities, and short-
term memory loss have lasted for weeks to months. These 
symptoms usually lessen or disappear following weeks or months 
away from affected areas or toxic cultures.
    Nearly all of the peer-reviewed published research on the 
toxic Pfiesteria complex have come from collaborations that my 
laboratory has developed with other Federal, State, and 
university scientists. As the foremost expert on these 
organisms in the world, I can state that comparative insights 
about the different Pfiesteria-like species are critically 
needed, focusing on their respective distributions, nutrient 
pollution controls on their toxic outbreaks, their impacts on 
estuary and food webs, their toxins, and their chronic as well 
as acute impacts on both fish and human health.
    Inadequate funding for research on toxic Pfiesteria over 
the past seven years has been a restraining factor since my 
laboratory first discovered these dinoflagellates at major fish 
kills. Congress has also been slowed because a critical 
component, chemical analysis of these toxins, has not been 
given serious attention.
    For the past five years, we have struggled to obtain 
assistance from colleagues who, despite having been sent toxins 
for analysis, repeatedly were not forthcoming with information 
about them. Toxin analysis is essential to determine whether 
fish from affected areas are safe to eat and the extent to 
which people are being hurt. My research associate and I have 
been seriously affected by these toxins. We have languished, 
and other people in our estuaries have been hurt because this 
information has not been forthcoming. Improved safety 
precautions could not be designed and treatment for affected 
people could not be developed.
    Recently, we were able to send these same toxins to 
collaborators at the National Marine Fisheries Service, 
Charleston's Marine Biotoxin Center, through the NIEHS 
intramural program. Without regard for financial gain or 
personal accolades, these colleagues honored the issue and have 
worked long hours without funding support. In less than three 
months, they have isolated and purified water-soluble and 
lipid-soluble toxins from Pfiesteria. Furthermore, in 
recognition of the critical nature of this issue, they shared 
their information immediately.
    My laboratory staff and I have forged collaborations and 
provided counsel for many Federal agencies, such as NOAA, 
NIEHS, FDA, and the EPA. We also have developed strong 
collaborations and provided guidance to State agencies in North 
Carolina, Maryland, Virginia, Delaware, and Florida, among 
others. We have ongoing collaborations with many researchers 
from universities in New England, the Mid-Atlantic, and the 
Southeast, bringing an inter-disciplinary team effort to bear 
in resolving important questions about the toxic Pfiesteria 
complex, as well as other toxic algae in both fresh and marine 
waters, in issues of fisheries protection, water pollution 
control, and human health.
    We also have established a network of volunteer concerned 
citizens. More than 300 such people in North Carolina are 
helping to report fish kills to us so that we can more 
accurately identify areas affected by Pfiesteria, and provide a 
warning system to help safeguard public health.
    In my opinion, Congress can enhance efficient progress and 
the collective ability to understand Pfiesteria and other 
harmful micro-organisms in coastal areas by funding several 
major laboratories to serve as centers of coordinated multi-
disciplinary research efforts. We who have the experience on 
Pfiesteria, that have been tested by the yardstick of many 
peer-reviewed publications, critically need resources that are 
essential so that we can make major progress quickly.
    We also need the support to provide rigorous training that 
is in high demand for other scientists in affected regions, and 
to help Federal and State agencies to provide better 
information for concerned citizens and environmental education 
efforts. Such environmental education outreach represents a 
pressing need to help protect public health, our fisheries, and 
our fishermen in affected areas so that our citizens are able 
to operate from a knowledge base, rather than from panic that 
inevitably occurs instead when ignorance of these issues or 
unwarranted fear is the basis of action.
    The impacts of toxic Pfiesteria and its close allies is an 
issue that I care deeply about and have worked to understand 
for nearly a decade. I have talked about the biology and 
impacts of these organisms, but a more central message needs to 
be related here. The toxic Pfiesteria complex commonly thrives 
in areas affected by nutrient pollution. They, as well as other 
harmful micro-organisms, appear to be increasing in coastal 
areas where urbanization, agriculture, and other human 
activities are threatening the health of our aquatic 
ecosystems. The story of Pfiesteria serves to illustrate that 
in coastal areas where so many of us live, fish health and 
human health are strongly linked.
    It is my hope that through knowledge of Pfiesteria and 
other harmful species, we can come to a greater appreciation of 
the need to take better care of our coastal waters, toward 
protecting both our fisheries and our own health.
    [The prepared statement of Ms. Burkholder may be found at 
end of hearing.]
    Mr. Gilchrest. [presiding] Thank you, Dr. Burkholder.
    Our next witness is Dr. Don Boesch from the University of 
Maryland Center for Environmental Science. We worked together 
on a number of issues before, and occasionally have been on the 
same boat at the same time in the Chesapeake Bay. Don, welcome 
to Washington. We look forward to your testimony.

STATEMENT OF DONALD BOESCH, PRESIDENT, CENTER FOR ENVIRONMENTAL 
                SCIENCE, UNIVERSITY OF MARYLAND

    Mr.  Boesch. Thank you very much, Congressman Gilchrest. 
We've been in the same boat in many respects, I think.
    My perspective on today's subject is influenced heavily by 
my recent service as the Chair of two scientific committees. 
Late last year, I was asked by the Secretary of the Interior 
and the Administrator of NOAA to chair a panel of experts that 
conducted a national assessment. We've produced this report, 
and I think we've given you copies of it. The title of the 
report is, ``Harmful Algal Blooms in Coastal Waters: Options 
for Prevention, Control and Mitigation.'' And our objective was 
to take this beyond the definition of the science needs, to 
talk about what we can do now to practically apply our 
knowledge to deal with prevention, control, and mitigation of 
the ill effects of these harmful algal blooms.
    More recently, I have been called on by Maryland Department 
of Natural Resources Secretary John Griffin--who I believe will 
be speaking with you on the next panel, to chair a technical 
advisory committee to advise the State's agencies in their 
assessment of fish lesions and kills in the Maryland waters. 
And this committee includes notable experts outside of 
Maryland, as well, including Dr. Burkholder and Dr. Burreson, 
who are also here today.
    From these vantage points, I'm pleased to offer my opinions 
about what is known about the effects of toxic dinoflagellates 
such as Pfiesteria, the role of human activities in stimulating 
them, and future research needs and approaches.
    The national assessment, as I said, focused on what could 
be done about the ill effects of these toxic algal blooms, and 
these include blooms that cause paralytic and amnesic shellfish 
poisoning, red and brown tides, and other blooms that cause 
catastrophic losses of aquacultured fish, particularly in the 
Northwest.
    Our report concluded that although pollution and nutrient 
enrichment have been strongly implicated in worsening algal 
blooms in various parts of the world, they have not yet been 
unequivocally identified as the source of any of these U.S. 
blooms that we studied. Unfortunately, we did not include 
Pfiesteria in this assessment, so we have to look at the 
Pfiesteria question a bit more carefully.
    Nonetheless, we concluded that the pursuit of water quality 
objectives, improvements of proving water quality that involved 
pollutant reduction, and particularly the reduction of nutrient 
inputs in the coastal waters, as Mr. Garcia has indicated, 
might well pay off major benefits in terms of reduction of the 
frequency of harmful algal blooms, as well as achieve the other 
living resource objectives that we've set forth in the 
restoration of bodies of water such as the Chesapeake.
    Our conclusions also included recommendations about how 
research can help us deal with prevention, control, and 
mitigation, and specifically called for Federal attention to 
the issue of, ``How do we then take our knowledge and apply it 
to control, prevention, and mitigation strategies''?
    Turning now to the Chesapeake, let me summarize where we 
are. First, after evaluating the variety of principal causes of 
fish lesions in the Pocomoke River that were observed starting 
last fall, it now appears likely that many of these lesions and 
the fish kills that took place this summer were associated with 
toxins of Pfiesteria or the related dinoflagellates, as Dr. 
Burkholder had indicated, that have been identified from these 
waters. The evidence has grown and increased our confidence 
that these are the causes of these problems.
    In addition, medical researchers have documented skin 
rashes and reduced efficiency in short-term memory in 
individuals exposed to this body of water, and, more recently, 
some other bodies of water in Congressman Gilchrest's district 
on the Maryland Eastern Shore that have had similar problems. 
This has obviously raised concern by a quantum and resulted in 
a variety of steps to ensure the protection of the public 
health, while we learn more about the detection and cause of 
these problems.
    The scientific team and advisors that are working on this 
within Maryland are turning their attention, in particular, to 
the environmental conditions that promote the outbreak of toxic 
forms of Pfiesteria-like organisms so that we can predict when 
they might occur, protect public health, thereby, and also 
better control the human activities that might stimulate them.
    As you know, nutrient over-enrichment, particularly from 
agricultural sources, has been widely suspected. Maryland 
Governor Parris Glendening has charged a Blue-ribbon Pfiesteria 
commission that he has appointed to recommend steps that can be 
taken to reduce the risks. Their report is due on November 1. 
More effective controls of nutrient losses from agricultural 
activities, including the disposition of poultry manure, are 
among the principal issues under review.
    I believe that Dr. Burkholder would agree with me that we 
are still in the early stages of the Pfiesteria learning curve. 
Her contributions have been truly monumental, but there has 
been only a small group of scientists as she has indicated that 
has worked on this problem for only a short period of time, and 
the organism is, indeed, very complex.
    With a stronger case now made for the documented health 
concerns, and a number of regions now more clearly affected, 
greater scientific research is required. I urge in your 
oversight role that Congress insist that this research is 
strategic, is integrated across the agencies and disciplines, 
incorporates high standards of scientific quality and peer 
review, and is accountable in leading to clearer understanding 
and solutions. From the perspective of our technical advisory 
committee, we've identified certain priorities for that 
research--and it's in my written testimony, and I will shorten 
it by not repeating them here.
    In my opinion, though, an effective mechanism already 
exists to support the direction and coordinate the needed 
environmental research on the environmental aspects of this 
problem in the NOAA-led program on Ecology and Oceanography of 
Harmful Algal Blooms, or ECOHAB, as Mr. Garcia described. This 
is a program that already exists. It's national in scope; it's 
broadly focused, and it involves the participation of other 
relevant Federal agencies, as well as NOAA. I would urge your 
attention to advancing this program.
    Finally, I'm very pleased, as Mr. Garcia indicated, that 
the Federal agencies have been working together to develop an 
integrated approach across government to address the 
environmental, health, and agricultural control problems.
    Thank you.
    [The prepared statement of Mr. Boesch may be found at end 
of hearing.]
    Mr. Gilchrest. Thank you, Dr. Boesch.
    Dr. Wright, of the Virginia Institute of Marine Science. 
Welcome, sir.

 STATEMENT OF L. DONELSON WRIGHT, DEAN AND DIRECTOR, VIRGINIA 
INSTITUTE OF MARINE SCIENCE, ACCOMPANIED BY EUGENE M. BURRESON, 
DIRECTOR FOR RESEARCH AND ADVISORY SERVICES, VIRGINIA INSTITUTE 
                       OF MARINE SCIENCE

    Mr. Wright. Thank you, Congressman Gilchrest.
    I'm not an expert on Pfiesteria myself. I'm here 
representing the Virginia Institute of Marine Science of the 
College of William and Mary, which includes an 
interdisciplinary team of 10 scientists who are studying 
various aspects of Pfiesteria and related phenomena, such as 
nutrients. The lead member of that team is Dr. Burreson, who is 
with me here today.
    As you've already heard, there is much that is already 
known about Pfiesteria piscicida. However, there are at least 
three other species in the Pfiesteria complex. I should correct 
an error in my written statement, which refers to two; there 
are, in fact, four spe-

cies. The basic biology and toxicology of these other species 
has not been well-studied.
    The species present in the Chesapeake Bay are not well-
documented, but the fish kill in the Pocomoke River on the 
Virginia-Maryland border seems to be have been caused by one of 
these other species, not Pfiesteria piscicida. Clearly, we need 
much more research on Chesapeake Bay species in the Pfiesteria 
complex and their impact on living marine resources. We also 
need more research on the broader questions of harmful algal 
blooms and the impact of nutrient inputs.
    The Virginia Institute of Marine Science has a long history 
of research in the Chesapeake Bay, and the Institute is 
mandated in the Code of Virginia to conduct research and 
provide objective scientific advice to the Commonwealth and its 
agencies; hence, has been the leading scientific institution on 
the Pfiesteria task force in Virginia.
    Our longstanding, monthly, fish stock assessment surveys in 
the lower Chesapeake Bay and its major tributaries have 
provided an early warning system for potential outbreaks of 
Pfiesteria-like organisms in Virginia. Our surveys to date have 
not documented an unusually high prevalence of deep lesions on 
recreational or commercially-important food fishes in the 
Chesapeake Bay, and there have been no reports of Pfiesteria-
related human illness from eating Chesapeake Bay seafood. Thus, 
consumer fears about eating Chesapeake Bay seafood are 
unfounded, in our opinion. We believe Virginia seafood is safe.
    The Virginia Institute of Marine Science has diverted 
existing resources to develop research capabilities on 
Pfiesteria complex organisms. We're presently culturing non-
toxic stages of heterotrophic--that means animal--
dinoflagellates from areas with high prevalences of lesions on 
juvenile menhaden. These cultures have been used to perfect 
protocols for identification of Pfiesteria complex organisms 
with a scanning electron microscope. We now lack only the 
training on specific identification characteristics to be able 
to provide an identification capability for the Chesapeake Bay 
region, but we must, very soon, obtain that capability.
    There is still much we don't know about Pfiesteria. Federal 
leadership and funding are urgently needed to support future 
research in at least four areas that are pertinent to the 
Chesapeake Bay. The first has to do with identification. We 
need to develop scanning electron microscope capabilities for 
identifying Pfiesteria when it occurs. We also need to develop 
rapid molecular or immunologic diagnostic techniques for 
Pfiesteria complex organisms.
    The second pertains to the general biology and ecology of 
the organism. We need to understand the general biology of all 
species in the Pfiesteria complex; in particular, the response 
that these organisms have to various environmental factors. 
Nutrient enrichment has been implicated as an important factor 
in increasing the abundance of these organisms, but the exact 
nature of the relationship has not been well-established yet in 
laboratory studies. More research is needed.
    Third is toxicity. We need to determine the toxicity of all 
species in the Pfiesteria complex and the effect that these 
toxins have on marine life. The fourth has to do with the 
ecology of fish lesions. We need to understand the distribution 
and the seasonal onset of lesions in juvenile menhaden in the 
Chesapeake Bay, in relation to various environmental factors in 
water quality. VIMS has elements in place to be able to 
accomplish all of this in Virginia. We believe that this 
capability must be developed within the Chesapeake Bay.
    I also would like to say that I agree with Dr. Boesch that 
the ECOHAB program provides an effective mechanism for multi-
state and interdisciplinary coordination.
    Mr. Chairman, that concludes my remarks.
    [The prepared statement of Mr. Wright may be found at end 
of hearing.]
    Mr. Gilchrest. Thank you very much, Dr. Wright.
    I have to leave in about 5 minutes, for about 10 minutes, 
and Walter is going to take over the Chair; I guess, Mike, you 
have a little bit more time to be here. You don't have to go at 
any time.
    But, I'm just going to ask a few questions before I have to 
leave to testify at another committee. But, what I'd like to do 
is come back and continue asking this panel questions, so you 
and Mike and Eva can have at it as long as you want--five 
minutes.
    One quick question I'd just like to ask the panel in 
general, and each of you, if you would like, can respond to 
this question. Is there any doubt at this point that Pfiesteria 
has a toxic stage, that Pfiesteria was the cause for fish kills 
in the Pocomoke--possibly King's Creek and the Chicomacomiko 
River, but particularly in the Pocomoke--that that toxic stage 
of Pfiesteria killed those fish in the Pocomoke and that a 
toxic chemical released by Pfiesteria did, in fact, have some 
harmful health effects on people? Is there any doubt about any 
of that at this point?
    Dr. Burkholder.
    Ms. Burkholder. Mr. Chairman, I think I can clarify a 
little bit for you. There is, as has been mentioned in the 
panel, a toxic Pfiesteria-like species; in fact, we have found 
two toxic Pfiesteria-like species in the Pocomoke estuary at 
this time. Dr. Steidinger, from the Florida Marine Research 
Institute, is a foremost taxonomist on dinoflagellates. She and 
I are working together to cross-compare and cross-corroborate 
our species analyses, and we feel that it's premature at this 
time to say which member of the toxic Pfiesteria complex was 
present, but two--actually two toxic species were. So they 
haven't been named, particularly, but they're definitely there.
    We have also verified that these toxic species could kill 
fish and culture fairly rapidly, after we received the samples, 
indicating that these species were indeed toxic in the Pocomoke 
estuary and were hurting fish.
    It is always very difficult to establish certain causality 
in a field setting, but from our data I would say that we are 
95 percent certain that two toxic Pfiesteria-like species were 
there, that they caused fish problems, and that the problems 
experienced by humans who were in that estuary at the time of 
these fish kills are extremely similar to the problems 
confronted by humans working in a laboratory setting with 
Pfiesteria. It's much easier to demonstrate causality in a 
laboratory environment, and the symptoms that were sustained by 
laboratory workers were very, very similar to what was 
sustained in the Pocomoke.
    Mr. Gilchrest. Mr. Garcia?
    Mr. Garcia. I would agree with Dr. Burkholder and would ask 
that Don Scavia, who is accompanying me, elaborate. The 
chairman had earlier elevated me to the ranks of these 
scientists by referring to me as ``Dr.,'' and although I 
appreciate it, I'll have to decline the promotion. But I would 
ask that Don Scavia----
    Mr. Scavia. Mr. Gilchrest, there's actually not a whole lot 
to add to what Dr. Burkholder has just said. It is clear that 
there is a Pfiesteria complex out there.
    Mr. Gilchrest. When you say Pfiesteria complex, you're 
talking about a series of these little, tiny creatures that are 
cousins.
    Mr. Scavia. That's right.
    Mr. Gilchrest. But not brothers or sisters.
    [Laughter.]
    Mr. Scavia. I think we'll stop with saying they're cousins.
    Mr. Gilchrest. Okay.
    Mr. Scavia. And they are certainly indicted in this whole 
episode. But beyond that, I think the work that is being done 
with Karen Steidinger in Florida and in JoAnn's lab to try to 
nail down which species we're dealing with is critical.
    Mr. Gilchrest. But it is your conclusion that a tiny micro-
organism, with whatever name--some aspect of the start of the 
food chain--does react with a certain toxic stage for the 
purpose, we guess, of stunning fish so they can go in and feed, 
and then that toxic chemical remains in the water? And if 
people go in the water near the time that that happened, they 
could have, or they do have, some health effects?
    Mr. Scavia. That's my understanding. I think JoAnn can 
actually elaborate on that.
    Ms. Burkholder. I can make a couple of other points. One is 
that the laboratory exposures that were sustained were 
predominately from inhalation of neuro-toxic aerosols--airborne 
toxins from these organisms. And in the field setting, it looks 
as though the same kinds of effects occur. These toxins are 
fairly short-lived when they're in the water or the air, based 
on our research to date, but there are both toxins in the water 
that can cause trouble for humans, and also toxins in the air 
that people can inhale.
    When fish stop showing signs of distress, when they stop 
developing erratic behavior or lesions or open-bleeding sores--
when they stop dying--the toxins that are in the water rapidly 
break down, so these Pfiesteria-like species have to keep 
making toxin in response to fish. The toxins don't last very 
long in the water.
    Mr. Gilchrest. So if the fish aren't present, they're not 
likely to release this toxin.
    Ms. Burkholder. That's true. These organisms are usually 
benign little animals, and they only become toxic--to date, 
based on our research--when they are in the presence of a lot 
of excreta from fish. I don't think it's any accident that 
menhaden have been the species that are affected in both North 
Carolina and Maryland waters, predominantly. About 90 percent 
of the fish that have died have been menhaden.
    Mr. Gilchrest. If a large number of menhaden are in a 
certain area where there is this Pfiesteria complex and this 
triggers the toxic stage of this Pfiesteria, if the fish then 
become stunned and actually die and then probably stay there, 
does the Pfiesteria then persist over a long period of time in 
its toxic stage?
    Ms. Burkholder. Pfiesteria is only interested in live fish 
when it's toxic, and once fish die, they transform; they 
convert like a caterpillar changing to a butterfly into stages 
that don't look anything like the little stages that were in 
the water, but those stages attach to fish and begin to feast 
on the carcasses or the remains of the fish; they're not toxic 
anymore.
    Mr. Gilchrest. Then they revert back to a different state. 
What's the time frame for all that to happen?
    Ms. Burkholder. In the laboratory with extremely toxic 
cultures, fish can die within ten minutes. Out in the field, we 
have what we call sudden death fish kills sometimes from 
Pfiesteria-like species, in which many fish can die within four 
hours.
    Mr. Gilchrest. So, the Pfiesteria, though, stayed toxic for 
about the same amount of time?
    Ms. Burkholder. Yes, they do. Menhaden, as I mentioned, do 
everything wrong. They are big; they travel in big schools; 
there are many, many fish in a school; they're very oily; they 
have lots of excretions, and they linger to feed in poorly-
flushed areas where a lot of their excreta will accumulate and 
stimulate Pfiesteria.
    Mr. Garcia. Mr. Chairman, can I make one point?
    Mr. Gilchrest. I'm going to have to run, so I'm going to 
turn it over to Mr. Jones. I'll be back, hopefully, in 10 
minutes.
    Mr. Garcia. I wanted to make one point that this 
highlights. This exchange that we just had highlights the need 
for the continuing research that all of the individuals here 
have been conducting and those on the later panel will talk to 
you about. Also, to note that Dr. John Ramsdell, who is with 
me, has been conducting research into identifying the toxin, 
which is a critical step in dealing with this problem, 
identifying and then characterizing that toxin so that we know 
what we're dealing with at the time that we have an incident of 
fish lesions or fish kill. Dr. Ramsdell will be available to 
answer questions, if you would like.
    Ms. Clayton. Mr. Chairman, may I ask a question?
    Mr. Jones. [presiding] Yes, ma'am. The lady from North 
Carolina.
    Ms. Clayton. I just wanted to inquire, and the whole 
assumption of the nutrient-rich environment that enhanced the 
possibility of this toxin, Pfiesteria-like organism, has the 
agriculture community nationally been involved with you in 
terms of research? I know we've just added, if that assumption 
is there, I would assume that we should begin having an 
integrated approach to this thing. Testimony suggested that the 
research need would be made and the assumption is that there is 
nutrient enrichment that gives great enhancement. I was just 
wondering, to date, is there any research from the agricultural 
community that's integrated into the research, Dr. Burkholder?
    Ms. Burkholder. No, not yet. I would welcome the 
opportunity to work with agriculture, but thus far, I have not 
been asked to participate in such research. I think it's 
important to note--I do appreciate the spirit of your 
question--I think it's important to note that it isn't, of 
course, just agriculture, but it's other sources of pollution 
too that can encourage Pfiesteria, such as urban runoff, and I 
think Congressman Jones will have more questions about 
nutrients in general, but I'll just start it off with that 
comment.
    Ms. Clayton. Okay, thank you.
    Thank you, Mr. Chairman.
    Mr. Jones. Yes, ma'am.
    Dr. Burkholder, I'm going to address my questions to you, 
but obviously, I think maybe Mr. Garcia might respond, on one 
of the questions, the first question. When you mention 1 
billion fish, I believe that's correct in your statement, as 
well as Mr. Garcia's statement, have died in the North Carolina 
waters, is that correct? Tell me--excuse me, I'll let you 
answer, I'm sorry.
    Ms. Burkholder. Yes, it is.
    Mr. Jones. Tell me how you determined the accurate number 
of 1 billion fish. I mean, I'm a non-scientist obviously, but 
that really raised a question in my mind. How can you verify 1 
billion fish? How do you go about--what's your process of 
verifying?
    Ms. Burkholder. In the old days, when we first began this 
research, we were relying heavily upon the Division of 
Environmental Management, especially the Washington regional 
field office. They, it is my understanding, used fish counting 
methods that are from the Wildlife Resources Commission of 
North Carolina and it was their estimate, sir, that I was 
using, not our own. Now that we have been involved with fish 
kills a great deal in the past seven years, we are using 
American Fishery Society's standardized and certified methods 
for counting for fish. They're still pretty rough.
    Out in the field when fish die, they often get scooped up 
by gulls even as they're dying or they get washed away or blown 
away across waves. So often those results are reported on the 
average by the thousand; can't get much more accurate than 
that. But the 1 billion estimate was--it sounds like a lot, but 
let me tell you the circumstances involved.
    That kill occurred in 1991 from September to October, over 
a six-week period. That fish kill in the Pocomoke, it affected 
very small menhaden; they were only three or four inches long 
and they had almost--I think 98 percent of them were killed 
with open, bleeding sores. So, it was a big expansive area, 
about 20 square miles over about eight weeks, with very small 
fish that kept coming up and dying.
    Mr. Jones. Thank you. Let me--the additional questions, 
since you mentioned the seagulls, has research been done on 
species which feed upon the affected fish?
    Ms. Burkholder. I wish I could tell you yes. We're just 
beginning some collaborations with the Food and Drug 
Administration, Dr. Sherwood Hall, in particular. We've been 
feeding infected oysters, that is, oysters that we've 
deliberately been feeding toxic Pfiesteria to, to see whether 
they would affect fish that consumed some of the oyster 
tissues. So far, the results are good from what I understand; 
there is no affect on fish that are consuming those infected 
oysters.
    To really nail that question down, we must know the 
chemical identities of the toxins, so, otherwise, we can't tell 
you where exactly the toxins go--if they're taken up by fish, 
whether they're broken down, whether they're allowed to 
accumulate, and so forth. What I can say that's encouraging, at 
least, unfortunately, it's an-

ecdotal, but it does provide encouraging news, such as wildlife 
do not seem to be affected by eating Pfiesteria of related fish 
kill fish. They can consume a lot of fish with open, bleeding 
sores--gulls, blue crab, and other species of animals--without 
any apparent problems. That's very unlike some of the other 
toxic algal problems that occur worldwide.
    So what I think may be going on is that these toxins are so 
lethal to fish so quickly, that they cause fish to look bad, to 
become diseased, and the skin peeling, and so forth, so quickly 
that folks would tend to leave those fish alone and probably 
those fish die so fast that I'm hoping they don't accumulate 
much toxin to begin with.
    Mr. Jones. Let me ask----
    Mr. Garcia. Excuse me.
    Mr. Jones. Mr. Garcia?
    Mr. Garcia. Just to elaborate on one point, as Dr. 
Burkholder said, the research on Pfiesteria is still ongoing 
and incomplete regarding bioaccumulation of the toxin in the 
food chain. There is evidence, however, that with red tide and 
other harmful algal blooms--and we have a map showing the 
incidents of these blooms around the country, there is 
bioaccumulation. For example, in shellfish, we also detect the 
dieoffs of manatees and dolphins as a result of red tide, and 
we feel that there is a relationship of all of these incidents 
connected around the country to nutrient loading into the 
system. Obviously, additional research is going to have to be 
done on the specific question, as does Pfiesteria 
bioaccumulate, but we do know that in other incidents that red 
tide and these other problems, that it is clearly a link in the 
food chain.
    Mr. Jones. Thank you. Just one or two other quick 
questions. Dr. Burkholder, I believe that Dr. Wright said, as 
it related to the fish in the Chesapeake or in the Virginia 
waters, that they were safe to eat. Would you say the same 
thing about the fish in North Carolina?
    Ms. Burkholder. I'm really glad you asked that. It's part 
of what I was alluding to in my testimony about a very pressing 
and critical need for environmental education of our citizens. 
Hindsight always has twenty-twenty vision, but if we could just 
educate our citizenry enough, they would not be responding from 
more of panic constraint, but instead on the basis of 
knowledge. The fish in almost the entirety of the Chesapeake 
Bay were very safe, from Pfiesteria-related problems anyway, 
even during the time that the Pocomoke actually was shut down. 
The State of Maryland acted, in my opinion, very proactively by 
just making sure that none of the fish from the affected area, 
even if they would have been safe for human consumption, were 
allowed to go to market. Unfortunately, because the public 
doesn't understand these issues very well, a panic ensued 
anyway and it's so unfair for the State of Maryland fishermen 
for that to have happened.
    In North Carolina, I can say, that when there are no fish 
disease events or fish kill events related to Pfiesteria-like 
species, of course those fish would be safe from Pfiesteria, 
yes.
    Mr. Jones. I thank you. My time is up. The gentleman from 
Delaware, Mr. Castle?
    Mr. Castle. Well, thank you, Mr. Chairman. Let me just ask 
Mr. Garcia one question. Maybe he can be brief, because I want 
to get to the others on some other questions. Perhaps you could 
outline for us--this is sort of a broad question--but I think 
it's important for all of us to understand what the Federal 
Government is presently doing to coordinate with the States on 
Pfiesteria and other harmful algal bloom research and 
monitoring and what Federal funds may be available. Perhaps the 
people here know, but I think it's very important that we hear 
that so we know that coordination is taking place.
    Mr. Garcia. Well, very briefly, it's a three-prong strategy 
dealing with near-term, mid-term, and long-term needs. In the 
near-term we have been providing assistance to the coastal 
states to deal with the monitoring and assessment needs of 
identifying the Pfiesteria toxin and dealing with fish lesions 
and outbreaks of fish kill. We have provided assistance with 
the Environmental Protection Agency to the State of Maryland to 
assist them in a rapid response in the event of a fish kill or 
the detection of fish lesions.
    Near-term, the work is focusing on identifying the toxin, 
its characteristics, its causes. Long-term is identifying or 
dealing with the larger issue of harmful algal blooms, their 
causes, and mitigation and control strategies, so that we can 
assist states in dealing with this problem--or these problems, 
rather--as we confront them around the country.
    Mr. Castle. A very fast followup is that (a), are we 
responding to crises into problems or is this now an ongoing 
kind of funding and research effort by the Federal Government, 
which I believe it should be?
    Mr. Garcia. Yes, it's probably a little bit of both, but 
the research has been ongoing for a number of years. This 
Pfiesteria problem is not new. Dr. Burkholder has been working 
on this for many years. The Federal agencies, NOAA in 
particular, have been following and researching this as well. 
And the larger problem of harmful algal blooms has been an 
issue which we have been very concerned about at NOAA and in 
the administration for the last several years, and as was 
noted, commenced this interagency effort to understand the 
problem of harmful algal blooms.
    Mr. Castle. Thank you. Let me turn to all those who have 
doctors preceding their names here, the real scientists in 
this. I guess I'm a little more uncertain after hearing you 
than I was before. After listening to Dr. Burkholder last week 
in Delaware and reading about this as much as I could, I 
thought I sort of understood it better than I realized I do 
now. My concern is as somebody representing a district and 
somebody's worried about all the issues that you know people 
are going to worry about. What are the causes and what do we 
have to do to prevent it? I thought that the causes were fairly 
certain. Obviously, there's a fish coming into the area causing 
these organisms to become toxic; that's pretty clear, but I 
thought that warm water was a factor, enriched nutrient levels 
were a factor. The factors in that were probably point and non-
point sources. But, I'm not as sure about that after hearing 
all of you, and apparently there's a little more scientific 
uncertainty about all of this, and obviously, what we have to 
do to prevent it is to correct some of those problems, I 
suppose.
    I'm interested in your as precise opinions as possible as 
to potential causes to why this is happening at different times 
in different States and most of what I hear about are East 
Coast States. I don't know if some of the--I've seen these 
maps; I saw them with national magazine first and some show 
problems perhaps of algae-related problems in other parts, but 
the Pfiesteria problem, to me, seems to be mostly in East Coast 
areas and generally in a fairly limited vicinity, I guess North 
Carolina being the--North Carolina and Virginia and Maryland, 
Delaware, and those areas.
    I'd be interested in your views on the causes, and be 
fairly bold in your answers. I mean, I want you know you need 
scientific backing, but we need to know what's going on here.
    Ms. Burkholder. Congressman Castle, we have done a great 
deal of research in the laboratory and some field research 
which strongly indicates that, under the right conditions, 
Pfiesteria-like species can be stimulated by nutrient 
overloading and they are the factors that you're alluding to. 
They are poorly flushed, poor flushing, or poorly flushed 
areas; fairly warm temperatures; the right salinity, and then a 
nice rich nutrient background encourages their growth. What is 
uncertain is the amount of nutrient loading, number one, that 
can begin to promote the problem, because Pfiesteria tends to 
occur and cause the most trouble in known nutrient-degraded 
waters.
    What level does it begin to have a problem at we are not 
certain yet. What are the interactions of organic and inorganic 
nutrient loading and all the different complexities of the 
forms of the nutrients that can stimulate Pfiesteria-like 
species, we're not certain of yet. We know that both organic 
and inorganic enrichments can encourage it, but they're just 
all kinds of quantitative information to nail down exactly 
where the problem will begin, under certain swell conditions, 
that we need still to----
    Mr. Castle. But, that is part of your ongoing research? Is 
that correct?
    Ms. Burkholder. Yes, it is.
    Mr. Castle. A substantial part of your research?
    Ms. Burkholder. That's the area of emphasis that I care 
about the most, although in the past three years I have had to 
devote almost all of our attention, with extremely limited 
funding, to toxin analysis, just growing enough of the organism 
to make toxin.
    Mr. Castle. Perhaps the others have a comment.
    Mr. Boesch. Yes, if I may address that--as I mentioned, I 
chair the technical advisory committee which Dr. Burkholder is 
on, and we met for the first time in early August. To answer 
Congressman Gilchrest's question and yours, too, when we first 
met, based upon the evidence we had about the Pocomoke River at 
the time, there was a lot of doubt about whether Pfiesteria, or 
Pfiesteria-like organisms, were cause of the lesions. And all 
of us concluded, Dr. Burkholder as well, that we weren't 
certain about this, but it seemed to be something we should 
look into more carefully. Since that time there's much more 
evidence been gained, so I wouldn't say there's absolutely no 
doubt, but I would say there's very little doubt that what 
we've seen in the Pocomoke River and the other rivers of the 
Maryland eastern shore this summer is related to toxins 
produced by Pfiesteria-like organisms.
    Secondly, with respect to your question about the role of 
nutrients and non-point sources. Obviously, as you know, the 
whole Delmarva Peninsula has extensive agriculture and heavy 
loadings from agricultural non-point sources. So obvious 
attention is brought there, particularly based upon the results 
that Dr. Burkholder briefly reviewed that she's produced in 
North Carolina. Now, obviously, if we're going to take major 
steps to control those, there's a burden of proof that we need 
to apply. So what we're doing right now in our technical 
advisory group and through Governor Glendening's citizens 
commission, is providing technical advice, pulling together the 
results that we have, not only from Dr. Burkholder's 
laboratory, but from other----
    Mr. Jones. Excuse me, I apologize for interrupting. We've 
got about seven minutes to get to the floor for a vote. Then we 
have a second vote, which is called a 15-minute vote. Then we 
have a five-minute vote. Certainly, we will recess for the time 
being. We'll let this panel come back and then Congressman 
Castle can finish this line of question and answering. So, we 
will recess for about 20-25 minutes. Thank you.
    [Recess.]
    Mr. Gilchrest. [presiding] The hearing will come to order. 
We have a series of three votes. Members will be in and out 
during the course of the rest of the hearing, but we thought we 
would proceed, so those of you who have to travel, your travel 
plans will not be disrupted.
    So, what I will do is begin the questioning, I guess until 
I run out of questions, and if they're not back, then this 
panel would be dismissed.
    I do have another question for--one of the questions I 
asked before I had to leave was dealing with the fundamental 
question: Is there a Pfiesteria complex that emits a toxin that 
kills fish and is harmful to humans? Is there anybody else that 
wants to make a comment on that?
    Mr. Boesch. Congressman Gilchrest, just to reiterate what I 
said a little bit after you left in response to your question. 
To keep this in perspective on how quickly we're having to 
learn about what's going on and improve our scientific 
understanding and advice, I commented that in early August, as 
you know, we held a meeting to bring all this information 
together. At the time, the technical advisory committee said 
it's certainly possible, but it was highly uncertain that the 
fish problems, the lesions and the like, were caused by 
Pfiesteria-like organisms. Since then, in a period of just 
about a month, we had the fish kills, we had more direct 
observations and measurements, and we had more positive 
identification of Pfiesteria-like organisms from the Pocomoke 
River.
    Our committee--and again, as I mentioned earlier, Dr. 
Burkholder's been a very valuable participant on it came to the 
conclusion that--it's in answer to your question. You said, 
``is there any doubt,'' and I said, ``well, it's hard to say 
there's no doubt, but it's certainly little doubt that what 
we've seen, at least in some of the kills we've had this 
summer, was related to Pfiesteria-like organisms and their 
toxic effects.''
    With respect to the health effects, I'm certainly not 
qualified to evaluate that evidence, but I've heard a lot of 
results presented, I think as have you, that concern the 
cognitive tests of individuals who've been exposed and the 
interpretation that they've had, reduction of the efficiency of 
their short-term memory. The evidence is certainly building 
from individuals who have been exposed, not only in the 
Pocomoke River, but in the two other eastern shore rivers. Now, 
that has to be viewed in the context of the other observations, 
not only of the laboratory researchers in North Carolina, but 
of many people who have been exposed potentially to these toxic 
organisms in North Carolina and the concerns raised by the 
primary care physicians who treat them.
    Mr. Gilchrest. Dr. Wright?
    Mr. Wright. Congressman Gilchrest, I'd just like to also 
follow up with a clarification of a news report that apparently 
was heard this morning on public broadcasting, that said that 
Virginia had concluded that there was no human health effects, 
negative human health effects. That was a serious 
misrepresentation. That is not a Virginia finding. I think if I 
may, I'd like to let my colleague, Dr. Burreson, comment 
further on that.
    Mr. Gilchrest. Dr. Wright, there was a story in The 
Washington Post this morning. Is that the same story that 
you're referring to?
    Mr. Wright. That's probably the same one, yes.
    Mr. Gilchrest. For those who may not have seen that, the 
Post article basically says that a Virginia health official 
said yesterday that tests on four people who believe they were 
suffering from exposure to Pfiesteria--basically, the Virginia 
health official came to a conclusion that those health effects 
felt by those four people was not due to Pfiesteria. That's 
what the paper said.
    Mr. Wright. Well, that's the case. Those four people were 
not affected, but that does not mean that one can conclude that 
there is no health affect.
    Mr. Gilchrest. I see.
    Mr. Wright. It's a more general question than that, and it 
certainly--Virginia has no evidence that says that Pfiesteria 
is not harmful.
    Mr. Gilchrest. Did you want Dr. Burreson to respond?
    Mr. Wright. I don't need it.
    Mr. Gilchrest. I guess, from----
    Mr. Garcia. Mr. Chairman?
    Mr. Gilchrest. Yes, sir?
    Mr. Garcia. Could I ask that Dr. John Ramsdell, from our 
Charleston lab, just address one point on the status of the 
work to identify and isolate the toxin, because I think that 
it's an important issue and would be helpful to understanding 
where we are.
    Mr. Gilchrest. Certainly, we'd like to hear that.
    Mr. Ramsdell. Well, sir, at this point in time I can tell 
you with certainty we do not have the final answer, but I am 
very pleased to be able to give you an assessment in terms of 
where we are at the present time, in terms of our efforts to be 
able to define the toxic material that's produced by this 
organism, as well as our efforts to be able to provide a means 
to effectively assay or detect the material from various 
sources.
    This work really has come about in a very productive 
collaboration between several institutions and has been a very 
productive one at that.
    Mr. Gilchrest. How long has this collaboration gone on for, 
as far as this issue is concerned, and who are those 
institutions?
    Mr. Ramsdell. This collaboration actually involves the NOAA 
Marine Biotoxins Program, Charleston; Dr. Burkholder's 
laboratory, North Carolina State University, and the Intermural 
Program of NIEHS.
    Mr. Gilchrest. How long have you been doing this?
    Mr. Ramsdell. This collaboration?
    Mr. Gilchrest. With this intermural program and your lab 
and Dr. Burkholder?
    Mr. Ramsdell. Yes, this basically has been conducted as 
three, two working groups in which we have gotten together for 
two three-day periods, working together, collaboratively, side-
by-side, at the bench. During----
    Mr. Gilchrest. Was this recently? Was this in 1997, 1992? 
How long is?
    Mr. Ramsdell. The first collaborative trial took place in 
July of this year; the second collaborative trial took place in 
August.
    Mr. Gilchrest. And the conclusion was that there's certain 
uncertainty?
    [Laughter.]
    Mr. Ramsdell. I wouldn't want to be on the record for 
saying that. Basically, what we have been able to determine is 
that there is a water-soluble substance produced by this 
organism and this water-soluble substance has properties that 
would suggest that it may interact with the nervous system. Key 
to being able to identify a toxin is a means to be able to 
detect it, a method to detect it, because these things are not 
visible. You need to have some biochemical means to define it.
    Basically, the approach that we took, what was based upon 
some earlier studies that we had done, where we treated an 
animal with a toxin; we injected a toxin in a mouse, and then 
we extracted from it's brain the genes that would be induced by 
that toxin. We identified one gene that looked very promising, 
and so we took the human analog of that gene and isolated the 
part of the gene that would be induced by the toxin. We then 
ligated that part of the gene to a gene from the firefly that 
is responsible for catalyzing formation of light. We then took 
this hybrid gene and expressed it back into mallanian cells. 
Then we found a cell type that, when they were exposed to the 
toxic organism or the water-soluble material from that 
organism, that these cells gained the capacity to generate 
light through enzyme pathways. This was used as a very 
sensitive means to be able to track the toxin and this is the 
key to being able to lead to undergo our purification steps--to 
be able to follow it through these long columns and all these 
different means which lead to a purified molecule. We are not 
at the stage right now where we have a purified molecule. We 
are close.
    Nonetheless, we have been able to find that this activity 
does, indeed, correspond to the ability to kill fish in a tank, 
and so it is promising in that regard, but until we actually 
can indeed say that there is one molecule that behaves in this 
assay the same way it affects fish, we cannot be certain.
    Mr. Gilchrest. I have one more quick followup question, if 
my colleagues will be patient with me for just one more minute, 
and I'll yield to Mr. Jones.
    Can you give us some timeframe when you will be, when you 
have isolated that molecule, when you will have some clear 
understanding of the toxicity of that molecule and what it 
does? Is that a month from now, a year from now?
    Mr. Ramsdell. Well, it must be recognized that's very 
difficult to do. During this process when you're dealing with 
an unknown substance, there is no good way to predict how it's 
going to perform in your next step. One thing we can say in 
terms of detection methodology is that we feel we are at the 
point now where we're quite satisfied with the development 
phase and we want to be able to take the next step, which is 
validation. That is to be able to really determine how reliable 
that this method might be as a predictor in terms of whether or 
not a bloom is occurring or a predictor in terms of whether or 
not an individual truly has been exposed.
    Mr. Gilchrest. So, you started this in July?
    Mr. Ramsdell. Yes, sir.
    Mr. Gilchrest. Is there some reason why it wasn't started 
in July of 1992, or 1993, or 1994? You don't have to answer 
that now. I yield to the gentleman from North Carolina.
    Ms. Burkholder. Actually, I could comment on that. We had 
basically been working with other researchers and had given 
them a lot of toxin in 1992, again in 1993, 1995, and the way 
that we had conducted this research, the individuals who were 
involved, had asked if they could be, basically, the people who 
were working on the toxin. So, at the time, we had forged that 
collaboration, but we could not seem to get much progress made. 
So, finally, we couldn't get any kind of information from those 
folks when we gave them toxin and finally decided that we 
really had to go on to other people, so we forged this 
collaboration.
    Mr. Gilchrest. Thank you, Dr. Burkholder. I guess we can 
get into that issue a little bit later.
    Mr. Jones?
    Mr. Jones. Thank you, Mr. Chairman. I had a chance to ask 
the majority of my questions prior to the recess, but there 
were two. Dr. Burkholder, I hate to keep coming back to you, 
but this is new for me, meaning being so involved with the 
North Carolina problem. How many assistants do you have in the 
research your doing in North Carolina?
    Ms. Burkholder. Right now, we have one full-time research 
associate in my laboratory, who is paid for as a full-time, 
full-benefits, permanent person, with North Carolina State 
funding. Unfortunately, it happens to be my research associate 
who was hurt by these organisms and is not allowed in the 
facility to work with them. So that research has to be 
conducted remotely; whatever he does has to be conducted in our 
laboratory and he cannot participate in growing toxic cultures 
and taking care of them. All of the rest of the folks in my lab 
are paid for by soft monies, that is, whatever research we can 
pull in from grants, and right now we have, on a temporary 
basis, from grant to grant, I think three folks who are in my 
laboratory as full-time technicians.
    Adding fish, seven days a week, round the clock, changing 
live fish with dead fish, having to dissolve the fish in bleach 
before we dispose of them in special biohazard facilities. The 
disposable gloves, boot, hair covers and other materials just 
to work with these organisms safely, costs about $40,000 a 
year, and this research is being conducted in a small trailer 
with a backup power generator.
    Mr. Jones. Thank you, and my second question, and the last 
will be: If you were in the Congress, or if you could recommend 
to the Congress--and this is for the entire panel--how would 
you suggest that the Federal Government could help facilitate 
and coordinate the research that is being done in the different 
States by the different universities? I mean, obviously I 
realize what NOAA's doing, Mr. Garcia, and appreciate that very 
much, but I guess, do you feel that the coordination and 
cooperation, I'm sure it's very good, but it could be done 
better? What would be your suggestion to this panel?
    Ms. Burkholder. My suggestion, as I had said earlier, would 
be to try to especially fund some centers--I think the 
Chesapeake certainly needs a center; the Albemarle certainly 
needs one at least--in which the research centers can function 
as integrative, coordinative effort bringing in 
multidisciplinary teams of people especially and including at 
least folks with a lot of expertise on these organisms, so that 
the questions can be quickly answered or at least more quickly 
answered than if we start from scratch in terms of our basic 
understanding of these organisms.
    I hate to leave this just with Pfiesteria, though. There 
are a lot of harmful algal species, and so there needs to be 
some very concerted research efforts in other regions and even 
in these regions for some of the other harmful organisms that 
we have. I do applaud what Mr. Garcia has suggested in terms of 
ECOHAB, the multi-agency bringing together of research funding 
for peer-reviewed research on these organisms, not just 
Pfiesteria, but others.
    I would also, however, hope that the collaborations that 
have been forged with State and Federal agencies would continue 
to receive some--well, actually would begin to receive some--
strong funding. We have not seen that yet.
    Mr. Jones. Thank you. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Jones. Mr. Castle?
    Mr. Castle. Well, thank you, Mr. Chairman. I had a chance 
to ask questions before, but I thought Mr. Jones' questions 
were excellent and exactly what I sort of wanted to talk about, 
too.
    I think, while we probably have in this room right now, 
just about the leading experts on Pfiesteria in this country, 
and to find out a whole lot after, you don't have to belittle 
anybody else, but this is not a field that has hundreds of 
thousands of researchers out there. This is not the latest 
nylon or whatever it may be. As a result, I think it's really, 
really important that if we do nothing else today, that we 
afford you the opportunity to talk to each other and to tell us 
what you need, as you just did in answering Mr. Jones's 
question, what we need to do to help you with respect to the 
research.
    I mean, I worry that we're going to--and we started to do 
some funding; we've had some amendments approved. We have $11 
mil-

lion in different programs and we passed them in the House, 
because we're concerned about this, but I'm worried that, you 
know, we're going to put $40 there and $30 there, or whatever 
may be and it's going to be out at the University of Delaware 
and Maryland and North Carolina State, and whatever may be, and 
you get no coordinated effort out of it. There's some excellent 
publications here; I think you all, on very limited resources, 
have really done some exceptional research work and some 
exceptional reporting work, but I have learned from this 
hearing, and knew before, there are also a lot of open 
questions that we have to get answered out there.
    It seems to me the best thing we can do is probably put all 
of you in a research lab someplace and throw away the key--
maybe let you out on the weekends, whatever, maybe, and have 
you all talk to each other and coordinate. I worry that we lose 
that, even in the day of computers, we lose that when you all 
go back to your various locations.
    So, I would hope, Mr. Garcia, and to the various academics 
and researchers here, that we would have a real devoted effort. 
In my understanding, the timing of the Pfiesteria outbreaks is 
it's usually a late spring, summer, early fall-type 
circumstance. So we probably have a little bit of time now in 
which we can get some collaboration on some of the details of 
the research and hopefully elevate all this a little bit there 
so we can have it.
    I'm not being critical, because I think this is--in fact, I 
think the response has been tremendous to this particular 
problem. It's been outstanding, but there's still enough open 
questions I really think we need to make sure we have that 
coordinated effort and that we as Members of Congress don't go 
off on tangents either. You straighten us out if we start to 
pass unnecessary or duplicative amendments or cause you to go 
down some path that isn't helpful to what you are doing.
    I mean, you're welcome to comment on that if you wish, but 
that's my judgment and what I would like to see come out of 
this. Dr. Boesch?
    Mr. Boesch. I'd like to comment on it. I think it's an 
excellent point. As I said in my testimony, I think, whatever 
resources you provide, you should hold the agencies and the 
scientific community accountable. This is a challenge for us 
because of the sense of public urgency and the difficulty of 
the problem. As I said, I would hope that we, however, not lose 
sight of the things that provide excellence in American 
scientific tradition, that is peer review and holding to high 
standards of quality.
    With respect to the coordination, I think we're seeing 
several things which are promising. First of all, on a Federal 
level. I think in part inspired by a conversation that our 
Governor Parris Glendening had with the President at a school 
event, the next day the alarms rang and there was a meeting of 
top-level Federal agency people to begin to coordinate their 
efforts. I think that's a very positive sign.
    Secondly, with respect to the scientific community outside 
of government, you're right. We've tended to be somewhat 
parochial at times, and particularly with respect to research 
in estuaries. We have worked with our colleagues in Virginia 
because we share the same Chesapeake Bay, but we've often 
approached our science as, you know, Chesapeake Bay science and 
Albemarle Pamlico Sound science, and Delaware Bay science. We 
need to do better than that. So this is going to be a challenge 
for us to do that.
    We've made one advance on this problem, when problems were 
identified in Maryland waters Secretary Griffin, who will be 
talking to you later, actually appointed a committee that 
includes not just Maryland scientists, but scientists from 
Virginia--Eugene Burreson is a member of that--and from North 
Carolina and South Carolina. So, we already have at least the 
beginning of a mechanism to begin to share our experiences and 
to talk about how we can work together across those State and 
watershed boundaries, if you will.
    Mr. Garcia. If I could just make one point, I thought your 
point was excellent. We have to maintain a sustained research 
effort in this field. We have, I think on relatively limited 
resources, accomplished quite a bit through ECOHAB and now 
through the combined Federal-State effort to deal with the 
Pfiesteria problem.
    I would also point out that it's difficult to overstate the 
need to focus on non-point source pollution and dealing with 
that problem. Whether or not Pfiesteria is linked to nutrient 
loading, whether or not some of these other problems are, it is 
a no regrets policy or approach. You will see an improvement if 
we can control and mitigate the impact of non-point pollution, 
and so I would suggest that, in addition to the research, we 
also need to devote resources to assisting the States, and this 
is a key point, assisting the States in developing their 
programs, because it has to be done on a State and regional 
level, developing their programs that will control non-point 
pollution.
    Mr. Castle. Thank you.
    Ms. Burkholder. If I could add one comment to that, I do 
very strongly agree with Mr. Garcia. Although the verdict is 
out on a lot of these algal species, we have highly-correlated 
Pfiesteria increases with both human sewage and swine waste in 
some of our field work. So, there's a case to be made for the 
role of non-point pollution to at least be further investigated 
and stressed in some of research efforts to resolve these 
questions.
    Mr. Castle. And of course, there's always side benefits, 
other benefits, just as in the Pfiesteria, with respect to 
that.
    I appreciate all of your answers and I do think you're 
doing a good job. I feel like a coach who's team is fighting to 
come back--you've done well; we've got to do a little bit 
better type thing like that. I'm not critical at all, but you 
know, we do need to talk to one another. So I do appreciate all 
the interest.
    I yield back.
    Mr. Gilchrest. Thank you, Mr. Castle. I just have two quick 
followup questions.
    Mr. Wright, in your testimony you stated that the number of 
fish with lesions in the Chesapeake Bay was not unusually high 
for this season. I've heard a number of other people make that 
same statement, and I would guess that it's probably fairly 
accurate. Yet, we see a great deal of information across not 
only the East Coast, but the West Coast, about algal blooms, 
about the Post a little while ago had an article dealing with 
162 dolphins washed up on the beach off of Mexico and they felt 
that it was some toxic one-cell plant; pelicans in 1991 in 
southern California, 22 in 1984. Well, in 1984 we began to hear 
about the problems in North Carolina; and then apparently in 
Canada, Prince Edward Island, three people actually died and 
100 people were sickened by five kinds of seaborne toxic algae.
    Are we just better at finding these things? Have they 
always existed to this degree where they've been harmful? Are 
we increasing the number of these incidents since, let's say, a 
certain timeframe in the United States, because of nutrient 
overload? I don't know if that's too vague a question, but----
    Mr. Wright. No, it's a very good question. I think there 
are at least four aspects to the lesion question that I 
probably should address. The first is that there are many 
causes of lesions on fish. The second is that our trawl 
surveys, which go back many years, so we have a historical 
record and we have people on the trawl surveys who are 
accustomed to recognizing fish with lesions and to reporting 
these causes, and they see lesions on fish every year during 
the summer months.
    The third point is that most of the lesions have appeared 
on menhaden this year. Out of a trawl survey that was conducted 
about two or three weeks ago to look more closely at the 
possibility of Pfiesteria in the Rappahanock River and other 
estuaries, something just under 12,000 fish were recovered in 
those trawl surveys, and of those 12,000 fish, .4 of 1 percent 
had lesions. So that's a reason to say that it's not unusually 
high, but----
    Mr. Gilchrest. I wouldn't argue with that. I think Maryland 
DNR showed pretty much the same statistics as you're describing 
here. I guess my question is, have these things always--is 
there an increase in the number of harmful algal blooms? An 
increase in this type of dinoflagellate, Pfiesteria complex in 
the last 20, 30, 50 years? Can we document that there's a surge 
in this or has it always happened and we're just better at 
identifying it?
    Ms. Burkholder. I'd like to make a couple comments. One is 
that we have only known that toxic Pfiesteria piscicida and 
it's close relatives were in the water killing fish since 1991. 
So we have a very, very poor historic record. We've been 
working in my lab for seven years on this in the field, but the 
only way that it came to our attention was because these little 
culture contaminants began to affect fish in the vet school at 
North Carolina State University. In other words, we found 
little organisms with attack behavior toward fish, a very 
bizarre kind of phenomenon. If we hadn't seen it because of an 
accident in culture, we wouldn't have even known enough to look 
for it out in the field. So, we have a very short historic 
record on Pfiesteria.
    At least in the Albemarle-Pamlico, I can tell you that old-
time fishermen have said that there have been kills such as the 
ones we've related to Pfiesteria--one in maybe the late 1970's, 
but mostly since 1984. They've told me that there are many 
times that fish have died, like menhaden, and small schools in 
canals in our State. They go into these canals, run out of 
oxygen, and they're not considered very bright fish, so they 
don't leave, and they die.
    But the kinds of kills that I'm talking about are kills in 
which most of the menhaden are filled with bleeding sores that 
can span 15 million fish sometimes and can stretch for weeks 
and sometimes even months in North Carolina's estuary. The old-
timer fishermen have told us that those kills in our waters 
have only been with us since about the mid-1980's.
    All we can do from there is speculate. The Albemarle-
Pamlico is very poorly flushed and for the past 50 to 70 years 
we've been pouring many, many, many tons and tons of nutrients 
into this poorly-flushed system. There's some research on other 
harmful species, which indicates that if you shift the balance 
of ratios of nitrogen and phosphorous nutrients that are found 
in sewage and animal waste, if you just shift that balance in 
the environment, you can encourage some harmful species to 
become more toxic, and so perhaps what's happened is an 
inadvertent experiment here. We didn't realize we were adding a 
lot of nutrient loading that might have shifted Pfiesteria--
which was always there--to act more toxic. We can't say that 
for sure, but that's one scenario that we'd like to examine 
further.
    Mr. Gilchrest. Thank you. Dr. Boesch?
    Mr. Boesch. Could I just comment on a broader scale? You 
mentioned all these other harmful algal species as well. The 
report that I distributed earlier to the Subcommittee has a 
brief review of what we know about the ones that we have 
confronting us in the United States, as well as globally. To 
answer your question, I think the answer I would give is that, 
first of all, there are some types of harmful algal blooms we 
know have increased because of the long period of observation. 
We have a long period of study and observation in marine 
science in European waters and we know that these have 
increased over the years.
    Examples from the U.S. situation: In Long Island estuaries, 
as well as in Texas, we have brown tides that we know did not 
have before. One area is located right next to the University 
of Texas Marine Laboratory where their observations for 50 
years show that brown tide didn't occur before, so we know that 
that's a new phenomenon. We have others, for example the red 
tides in Florida and the Gulf of Mexico, which we've known 
existed and have wreaked havoc for a very long time. But, 
there's some concern that in the in-shore regions where we're 
polluting, over-enriching, changing the environment, we may be 
making those worse.
    For Pfiesteria, the reason I think it's difficult to 
answer, as Dr. Burkholder indicated, is that we just discovered 
it. We don't have a clear understanding of what happened before 
in the Chesapeake or the Albemarle-Pamlico. Indeed, it has been 
long understood that there are more lesions in fish in the 
summer. In fact, in 1984, there was what seemed to be unusually 
high incidence of fish with lesions throughout many parts of 
the Chesapeake. This could indeed have been caused by 
Pfiesteria-like organisms. It's very difficult to unravel; 
there's some potential that we could look at cysts in the 
fossil record, and so on, but it may be a question we'll never 
fully answer.
    Mr. Gilchrest. Thank you, Dr. Boesch. Mr. Garcia?
    Mr. Garcia. Dr. Boesch basically covered the point I was 
going to make, but in the ECOHAB work that we have done, the 
research indicates--the weight of the research and opinion is--
that, yes, these broader incidents of broader algal blooms are 
occurring with more frequency, with greater intensity and 
severity and they're lasting longer. So, that would be my 
answer to your question. And the question of whether or not we 
were just looking in the right places now, that's part of it. 
We have acquired more knowledge, but, again, the weight of the 
opinion is more frequent, more severe, and longer-lasting.
    Mr. Gilchrest. Thank you. Mike, Walter, do you have any 
follow-up questions? I think what we'll do--we just had another 
vote, so we'll recess, also dismiss the panel, and then come 
back for the next panel.
    If I could just--real quickly though, while we're running 
over there--is there any way, right now, to predict an estuary 
might have these troubles?
    Ms. Burkholder. That has eluded us on almost all of the 
harmful algal bloom species for a long time. We can tell you 
where they're likely to occur, but whether you get one that 
year depends on a lot of other factors that we still don't 
understand very well, like how weather interacts with some of 
the flow events and run-off; just those two factors can throw 
us off.
    Mr. Gilchrest. Thank you.
    Mr. Wright. This is clearly an area of need for future 
research, as I identified earlier, and it's one for which we 
will most certainly need Federal resources and coordination.
    Mr. Gilchrest. Thank you. Is the ECOHAB programs one of the 
central programs that Mr. Castle was referring to that we might 
want to fund? Does it represent a program that can draw from a 
variety of disciplines?
    Mr. Garcia. Yes, sir.
    Mr. Gilchrest. How did Pfiesteria get its name?
    Ms. Burkholder. It was named in honor the late Lois 
Pfiester. She had a very interesting and unusual life. She was 
formerly a nun. She left the convent after several years, it's 
my understanding, and formed a family--was a professor at the 
University of Oklahoma. I came from a fresh-water background, 
and so I was familiar with her work. These organisms don't 
realize there's a boundary between fresh water and oceans; they 
call that an estuary and they go down it.
    So, I had read the fresh-water literature, as well as 
marine literature, which is sometimes not done by marine folks. 
We in fresh water sometimes don't read marine research and vice 
versa, but I knew of her research, and she had found 
dinoflagellates in little bogs in Oklahoma with 38 different 
life cycle stages that transformed rapidly among all these 
different things. And so when I first found Pfiesteria doing 
these strange and bizarre things, it was through Dr. Pfiester's 
insights that I was able to make the leaps in understanding it 
that I was able to make. So these were named in honor of Dr. 
Pfiester.
    Mr. Gilchrest. So, Dr. Burkholder, you are responsible for 
the name?
    Ms. Burkholder. Well, actually, Dr. Steidinger and I worked 
together on that name.
    Mr. Gilchrest. Thank you very much Dr. Burkholder.
    Gentlemen, thank you. We'll recess for about 15 minutes.
    [Recess.]
    Mr. Jones. [presiding] The Subcommittee will be in order.
    We now have our next panel of witnesses: Wayne McDevitt, 
Secretary at the North Carolina Department of Environmental and 
Natural Resources; the Honorable John Griffin, Secretary of the 
Maryland Department of Natural Resources; the Honorable 
Christophe Tulou, Secretary, Delaware Department of Natural 
Resources and Environmental Control; and Mr. Rick Dove, the 
Neuse River Keeper, Neuse River Foundation; and also Mr. Dan 
Baden, Marine and Freshwater Biomedical Science Center.
    Gentlemen, thank you very much for being with us today. I 
think most of us who have the privilege to be on this Committee 
appreciated the first panel, it was extremely informative and 
very helpful, and we're delighted to have you with us today. 
So, with that, we'll start with Dr. Dan Baden. Dr. Baden?

  STATEMENT OF DANIEL BADEN, DIRECTOR, NATIONAL INSTITUTE OF 
ENVIRONMENTAL HEALTH SCIENCES, MARINE AND FRESHWATER BIOMEDICAL 
                         SCIENCE CENTER

    Mr. Baden. Good day. My name is Daniel Baden and I am the 
director of the National Institute of Environmental Health 
Sciences Marine and Freshwater Center at the University of 
Miami. I have 24 years experience in marine toxin research.
    Toxic marine phytoplankton are responsible for red tides or 
harmful algal blooms known as HABs--you've already heard this. 
HABs occur in virtually all coastal areas of temperate and 
tropical seas and are responsible for five known types of 
seafood poisoning in man.
    Specific HAB incidents are often geographically localized 
but there occurrence is sporadic. As I speak, in addition to 
the Pfiesteria and other fish-killer HABs in the mid-Atlantic 
region, Texas, Louisiana, and other States on the Gulf of 
Mexico are experiencing Florida red tide outbreaks. These red 
tides are notorious for tons of dead fish per day per mile of 
coast-line. All HABs are natural events induced or permitted by 
specific environmental conditions.
    HABs are also implicated in mass-marine mortalities known 
as epizootic. In the past 20 years, red tide toxins have been 
implicated in the deaths of bottlenose dolphins in Hawaii; 
manatees in Florida; pilot whales in the North East U.S.; 
pelicans in California; cormorants and gannets on the east 
coast of the U.S.; fish along the entire Gulf of Mexico coast-
line, also stretching up to the Carolinas and Maryland coastal 
zones.
    As sentinel or indicator species in the oceans, marine 
animals are akin to the canaries taken into mine shafts. Their 
death or sickness is an indication of degradation of local 
environmental conditions. Questions concerning environmental 
parameters conducive to HAB development, maintenance, and 
termination, test our oceanographic knowledge base. Questions 
concerning our ability to detect and/or predict blooms as they 
develop address components of marine biotechnology, coastal 
zone nutrient loading, and life cycle biology. Questions 
concerning effects on marine animals touch on aspects of 
biomedical research, detection technologies, and whole animal 
physiology.
    Federal and State programs that address each of these 
research questions individually are currently in place, but 
holistic research that addresses the interface between research 
areas is lacking. Thus, Departments of Commerce, Defense, 
Health and Human Services, and Agriculture need to coordinate 
with one another and develop partnership funding strategies.
    Likewise, basic scientists, clinicians, oceanographers, 
ecologists, and taxonomists, all must develop better ways of 
interaction and communication essentially by developing 
interdisciplinary approaches to their science. In other words, 
these activities that are land-oriented and those that are 
ocean-or aquatic-oriented need to be coordinated in the coastal 
zone.
    Over half of the U.S. population resides within 50 miles of 
a coast line. It is in this coastal zone that HABs occur, that 
marine animal deaths have been documented, and that coastal 
nutrients are changing. Coordinated, multi-agency funding 
packages have not kept pace with the interdisciplinary nature 
of the science.
    Harmful algal blooms produce some of the most potent toxins 
known to man. Potencies only exceeded by the more familiar 
protein toxins like botulism toxin. HAB organisms are often 
toxic throughout their life cycle--there are, of course, 
exceptions like Pfiesteria, that appear to exhibit toxic 
phases. Because of their high intrinsic toxicity, exceedingly 
small amounts are required to induce lethality. Even smaller 
amounts may be accumulated and cause sublethal metabolic and/or 
neurotoxic abnormalities.
    We need more research to completely define the consequences 
of exposure, to understand the toxic mechanisms at the 
molecular level, to design antidotes or therapies, and 
ultimately, to develop preventative strategies for man and 
animal alike. This is an interdisciplinary area that should be 
addressed by NIH, NSF, and DOC.
    We need more research directed at HAB initiation, 
progression, and termination. Concurrently, it is essential 
that we develop testing methods and other tools that can 
accurately measure the number of HAB organisms at the beginning 
of a bloom. We currently know so little about triggering or 
sustaining factors that this is an area of active interest in 
all regions of the U.S. As many as 20 marine organisms produce 
HABs, and each has individual ecological requirements. Factors 
beneficial to one species may be detrimental or inconsequential 
to yet another species.
    There is a need here for Federal-State partnerships for 
research and information sharing. There is a decided need for 
specialized programs for development of test kits, perhaps by 
partnership with the biotechnology industry. We need to develop 
testing protocols that can measure toxins through food-chains 
and within organs and tissues. Especially with the 
implementation of the HACCP program or seafood testing in 
December of 1997, there is a desperate need for bringing all 
testing to use in certification.
    Finally, stable funding for the science in academic 
laboratories and at the State and Federal level is necessary so 
that we can produce rapid response teams to address HAB 
problems. It often seems that funding runs about nine months 
behind toxic events and universities are increasingly reluctant 
to provide the fiscal support to carry out rapid-response 
projects.
    I would like to thank the Subcommittee for the invitation 
to address these issues.
    [The prepared statement of Mr. Baden may be found at end of 
hearing.]
    Mr. Jones. Thank you, Dr. Baden.
    Now we will hear from the Honorable John Griffin.

 STATEMENT OF JOHN GRIFFIN, SECRETARY, MARYLAND DEPARTMENT OF 
                       NATURAL RESOURCES

    Mr. Griffin. Mr. Chairman, members of the Subcommittee: on 
behalf of my boss, Parris Glendening, the Governor of Maryland, 
and everyone in his administration, I'm honored and pleased to 
be here with you this morning to share with you some of our 
experiences at the State level in dealing with this complex 
issue. I might say by way of introduction, sorry to see that 
our own Congressman Wayne Gilchrest is not here, but he has 
been a great friend and leader on this and many other issues 
working with us at the State level in Congress.
    Mr. Jones. Mr. Griffin, I assure you he will be by.
    Mr. Griffin. I also, of course, being here on Capitol Hill, 
want to recognize the efforts of others in our delegation, 
particularly Congressman Steny Hoyer and, over on the Senate-
side, both of our U.S. Senators, Paul Sarbanes and Barbara 
Mikulski have been great to work with. In fact, we're all very 
grateful at our level for the very rapid and effective 
response, Mr. Chairman, coming from Congress and the President 
and the Federal agencies. I've been in State government now 
about 20 years and I can tell you without hesitation this has 
been probably the preeminent example of effective Federal-State 
partnership in responding to this crisis. And, all of you are 
to be commended for your support and your rapid response.
    Actually, we have, in State government, in Maryland, I 
guess for better or worse the last several months, been a bit 
on the cutting edge of this issue. And, it has represented an 
unprecedented challenge for us and, at times, frankly, it 
seemed like something out of an H.G. Wells novel.
    But, I thought what I would do briefly is trace looking 
back at the last several months some of the lessons that we've 
learned in trying to deal with this. And, the first one is the 
whole question of the learning curve. I think everybody that 
has approached this--from myself, the folks in our department, 
our sister agencies--everyone started off with a fair degree of 
skepticism, either because the problems that were being 
reported didn't seem to fit our mental maps, or because they 
seemed to stretch the public health science, or we were 
starting to question a little bit the motives of some of the 
folks that were bringing these problems to our attention. For 
example, did the watermen have other axes to grind?
    So, each and every one of us as we became more immersed in 
this issue, I think, while at varying degrees, went from being 
somewhat skeptical to coming around and saying, ``Hey, there's 
something serious going on here.'' So, to the extent that you 
think about this issue in the broader context nationally and 
around the country, suffice it to say from our experience there 
is always a learning curve with this kind of an issue.
    The second lesson, I guess if you will, that comes to my 
mind in thinking about this issue over the last several months 
in Maryland, is the whole issue of addressing the fear of the 
unknown. This, obviously, because of particularly its public 
health implications has created a great degree of concern in 
our State, and among folks who come here to vacation. And, at 
first we were sort of faced with a paradox: if you voiced 
publicly legitimate scientific concern, whether it's in the 
environmental field or the medical science field, there you 
were fairly rapidly confronted with issues over wanting to 
cover up data or being in a state of denial even when those 
questions were raised in a fairly professional way. Where it 
led us in Maryland rather rapidly was to a posture of full and 
timely disclosure of information.
    We, looking back on it, realized that in the face of the 
fear of the unknown the best way to handle that is to start to 
develop a level of confidence in the public that you are doing 
all that you can, that you're sharing information and data as 
openly as possible with public directly through their elected 
representatives and through the media.
    And that, of course, leads to the other half of the 
paradox, and that is that when you do what you tend to be 
accused of over-hyping the situation, but I think these kind of 
issues, as you all know, become--and they have in this case, 
certainly--a topic of great public consternation. And, even 
when you're on the cutting edge of this, and even when you're 
learning as you go along, I think, one of the lessons we've 
learned is: engage in full and timely disclosure of what you 
know. And, through that, I think, one can build a sense of 
relative confidence in the citizens and, therefore, tend to 
dissipate the sense of anxiety that they have. I'm not saying 
that that's a posture that isn't at times kind of sloppy, if 
you will, but for us, seems to have worked fairly well, I 
think.
    An example of that that I would share with you--and I 
notice Congressman Gilchrest came into the hearing room and he, 
of course, was present for that, as he's been on this issue and 
many others leading from his role as a Member of Congress--we 
had a conference at Salisbury State University on the Eastern 
Shore of Maryland in early August. And we tried to bring 
together our colleagues from the Federal agencies, sister 
States; Wayne and Chris both sent folks from their Departments 
to our three-day summit. We had a number of folks from the 
scientific community there, elected officials like Congressman 
Gilchrest; and we had a number of constituents from the lower 
Eastern Shore, the affected watermen, farmers, people whose 
businesses rely on the tourism trade, and we engaged, I think, 
in a very open, honest, thorough discussion of the state of our 
knowledge, concerns, and areas of distrust that folks had about 
what we had done or not done.
    And, I think looking back on that again, is an illustration 
of this notion of being as open as you can with the public, 
even if, for the short-term, that creates some problems. This 
is a long-term issue, and, therefore, you have to look at it in 
terms of building confidence and trust and understanding for 
the long-term.
    The next issue, in terms of a lesson for us, I think, is 
the complexity of this issue and how it demands a high level of 
interagency collaboration. As you know, because this problem 
cuts across var-

ious functions of government--environmental, public health, 
economic, to name a few--it requires the agencies to sort of 
sacrifice a bit of their singular missions to the over-riding 
cause of understanding and solving the problem. And, I think in 
general, we have been able to do that in Maryland, not only 
among the Governor's agencies, but, as I mentioned earlier, 
with active participation from our Federal counterparts.
    Two other points I want to emphasize in terms of this 
collaboration: one is the importance of science and the 
importance of having management agencies linked up with their 
scientific counterparts. Don Boesch--Dr. Boesch--mentioned in 
his testimony, I noticed, a reference to the fact that I had 
asked him to set up a scientific brain trust, if you will, to 
guide us in our deliberations as management agencies. Looking 
back on that, again, as a lesson that, I think, was a 
fortuitous action that we took and Don's committee has 
important scientists from up and down the eastern seaboard, 
including Dr. Burkholder and her colleague, Dr. Stidenget, and 
we will continue to use them as a forum to which to deliberate 
some of the many imponderables that confront us in terms of 
taking management actions when the science is either in debate 
or not clear.
    And, of course, another example of the intergovernmental 
effort here was another summit that was held here last month 
called by Governor Glendening, my boss, with active 
participation from governors in surrounding States, and the EPA 
Administrator, Carol Browner, and a number of folks from 
Federal agencies, some of whom are here today testifying. That 
was another, I think, stellar example of the degree to which 
governments are kind of putting aside, more so than we 
typically do, prerogatives and turf and everything else, and 
just looking at the problem and trying to work together to 
solve it.
    Another lesson, of course, as I reflect back on the last 
several months has been the importance of leadership: people 
stepping forward. Three come to mind: first, I assume you'll 
understand that I want to mention my boss, Governor Glendening; 
secondly JoAnn Burkholder who you heard from earlier; and 
lastly, Jack Howard--I don't know if Jack's going to make it 
today--and all the watermen down in the shell town area in the 
southern Eastern Shore. Each in their own way broke with 
convention, took risks, and did so many times in the face of a 
lot of peer pressure to the contrary. So, in Maryland, as Dr. 
Burkholder has said, we've been fortunate that our governor has 
been willing to become personally involved in understanding 
these issues, taking political risks to try to ensure the well-
being of our citizens and our environment, stay the course, and 
make hard decisions in the face of many imponderables.
    And I would like to emphasize that point and recall, as 
many of you know, my own personal experience in State 
government going back to 1985, we had declining rockfish or 
striped bass populations up and down the Atlantic seaboard, and 
we made a decision at that time in the face of uncertain 
scientific predictions and banned the harvesting of rockfish. 
And I guess that taught us a lesson that I would apply to this 
particular issue and that is: if you wait until all the science 
is in and confirmed, you may have waited too long. And, so, 
that isn't to say that continuing to push the envelope in terms 
of advances in scientific understanding is not very important; 
it is, but there are going to be at times a long the way when, 
at the government level, decisions are going to have to be made 
which are not irrevocable, but are going to have to be made, 
and in retrospect, of course, that's what leadership is all 
about.
    The final couple of lessons I would share with you: one is, 
what this issue has really, I think, brought forward for us in 
Maryland, is the important link between economic well-being and 
environmental well-being. And, if nothing else has done it 
heretofore, this issue has focused everyone's understanding in 
Maryland, I think, on the very important fact that you have to 
have in order to have a healthy economy, you have to have a 
healthy environment and they are so linked with one another. 
And, the impacts of this issue in Maryland, not only on the 
immediate economies of the fishing industry, both recreational 
and commercial and farmers, and the seafood industry, and 
tourism interest is obvious, but there are many secondary 
impacts that we're experiencing right now.
    Finally, the last lesson, I guess, is that I think this has 
shown us that we clearly--you know in Maryland we've been at 
the effort with our sister States and the Federal Government of 
restoring the Chesapeake Bay. We've been at it now for about 15 
years, most people feel that it's one of the several handful 
model efforts around the country, indeed around the world. And, 
so, on the one hand, you sit here when things like Pfiesteria 
outbreaks happen in your own State and wonder, well, gee after 
all this effort and we're still having these problems. But, I 
guess, what it has led us to think more and more about is the 
need to look more broadly--more holistically, if you will--at 
environmental complexes as were mentioned earlier. And, in 
terms of sources of nutrient input, start to do for nonpoint 
sources what we have done collaboratively for point sources 
during the first 25 years of the Clean Water Act.
    So, I'll conclude, Mr. Chairman, and Members. Thank you for 
your time, and I'll be happy to answer any questions.
    [The prepared statement of Mr. Griffin may be found at end 
of hearing.]
    Mr. Gilchrest. [presiding] Gentlemen, thank you very much. 
I know it has been a bumpy road here for the past six months, 
but I think you have stayed the course and done the right 
thing.
    We will recognize the gentleman from North Carolina to 
recognize his witness. Walter?
    Mr. Jones. Thank you, Mr. Chairman. I am pleased to welcome 
the Honorable Wayne McDevitt, Secretary of North Carolina 
Department of Environmental and Natural Resources. And what 
makes this very special is Wayne and I have been friends a 
long, long time; and even more so than that is that he has been 
in this position for 70 days. And, during that 70 days, he had 
to deal with the North Carolina legislature as they were 
closing down shop in late August; and then, the people that I 
know that know Wayne have great respect for him, as I do, and 
we know that he is going to do an excellent job for the 
citizens of our State, not only with this issue, but other 
issues. Also, I would like to extend to his staff my respect 
and welcome to Washington, DC.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Mr. McDevitt?

    STATEMENT OF WAYNE McDEVITT, SECRETARY, NORTH CAROLINA 
       DEPARTMENT OF ENVIRONMENTAL AND NATURAL RESOURCES

    Mr. McDevitt. Thank you, Mr. Chairman, and also thank you 
to North Carolina's good friend, Congressman Jones, who not 
only does a tremendous job for his district there in eastern 
North Carolina, but for all of North Carolina. And, it's quite 
frankly an honor for me to be in a room that I see a former 
Congressman Jones portrait on the wall back here, and again, 
thank you for allowing us to be here.
    On behalf of the Governor, I do want to thank the Committee 
for giving us this opportunity to testify. We have submitted a 
statement earlier, along with other comments, and I have 
technical staff with me today to assist as we continue the 
dialogue.
    Pfiesteria was first identified in North Carolina, and 
North Carolina intends to be a major player in solving this 
problem. Much of the early work on Pfiesteria was funded 
through a cooperative Federal-State partnership, including 
several of Dr. Burkholder's early research efforts.
    Pfiesteria is a serious problem and we all agree on that. 
There seems to be more that we don't know than that we do know 
about Pfiesteria. We must learn more about this organism and 
we'll continue to work with our Federal and regional partners 
to do so. But, we must look at the bigger issue: protecting and 
restoring our water quality. Pfiesteria is the symptom of a 
greater problem. We all know, and Dr. Burkholder has told us 
and others have told us, that significant nutrient reduction is 
critical if we're going to restore our rivers.
    We're pleased to join in this regional approach to a common 
problem. Many of our States--many of the States represented 
here today--have large estuaries with slow-moving water, strong 
agricultural economies, and growth in populations, and changes 
in land use. The potential impacts of that growth are obvious 
and the need to address them is just as obvious.
    Your Committee has played a major role in setting policy 
with respect to fisheries management, research, and the 
protection of coastal and marine environments. Your role in the 
reauthorization of the Magnuson Act, particularly as it relates 
to habitat protection, is vital. North Carolina has the largest 
estuarine system of any single State on the Atlantic coast: 2.3 
million acres. Species need estuaries to complete their life 
cycle: spawning, nursery areas, feeding areas, and migration 
routes. This is why water quality protection and restoration 
efforts are so critically important. Fish from North Carolina 
estuaries and coastal rivers migrate throughout the Atlantic 
coast and support significant commercial and recreational 
fisheries along the Atlantic seaboard.
    Recreational and commercial fishing in North Carolina 
contributes $1 billion annually to our State's economy. 
Providing viable fisheries and protecting habitats are high 
priorities. We recently passed, in North Carolina, the North 
Carolina Fisheries Reform Act that will tie together our water 
quality, coastal management, and fisheries protection efforts 
through habitat protection plans in a way that has never been 
done before.
    Dr. Burkholder has said on a number of occasions that 
Pfiesteria is a cause for concern and not alarm. We need to 
work together to inform and educate the people in our 
respective States about the precautions they need to take to 
protect health while making sure our fishing and crabbing 
industries remain viable.
    In North Carolina we've witnessed fish kills, algal blooms, 
and degradation of some of our waterways and estuaries due to 
excess nutrients. We've acted to combat our nutrient problems 
and we've made some meaningful progress. We need to do more. We 
need to do much more. But I would like to highlight for a 
moment some of the steps we have taken.
    The Governor and the State lawmakers just concluded the 
most important legislative session for the environment in our 
history. We passed fisheries reform legislation. We're 
strengthening our strategy to reduce nutrients in our troubled 
Neuse River. We established the Clean Water Management Trust 
Fund which provides $50 million annually to water quality 
protection initiatives. We established a wetlands restoration 
program. We're toughening our enforcement policies and 
strengthening our sedimentation and control programs. We 
established a rapid response team to investigate fish kills, 
and expanded our coastal recreational water quality testing 
program to protect public health. We toughened siting, 
permitting, and operating requirements for livestock operations 
and strengthened our agricultural cost-share program. We've 
created a scientific advisory committee, established a medical 
team, a hot-line for citizens to call. We stepped up 
environmental education.
    Most important, Governor Hunt signed the Clean Water 
Responsibility Act which puts a two-year moratorium on hog 
farms in the State, reduces nutrient limits for waste-water 
dischargers and nonpoint sources, and incudes provisions for 
improved land use managements. North Carolina has major 
financial investment in funding important research programs and 
initiatives. Over the past two years, we've approved over $147 
million to support these efforts.
    We've taken some very important steps, but we must do more. 
We must do much more. We've met with our North Carolina 
Congressional delegation and with the governors from five 
States, and we all stand ready to join as full partners on this 
issue. We've talked with them about our needs. In particular, 
we've emphasized the Governor's commitment to establishing a 
Center for Applied Aquatic Ecology at North Carolina State 
University where Dr. Burkholder does her research. Congressman 
Jones has introduced legislation to authorize funding for that 
center, and I would like to point out that the entire North 
Carolina delegation supports that, and we urge favorable action 
as quickly as possible.
    In North Carolina we must reduce nutrients, including 
pollution from atmospheric deposition. We must fund additional 
research; we must identify additional funds for more than $12 
billion in waste water treatment needs in our State; and we 
must collect data and conduct research to develop fishery 
management plans. In order to do all of these things and 
others, we must have strong legislation, clear regulations, 
tough enforcement, good information, funding for research, and 
public support. We welcome the assistance of this Committee, 
and our Federal partners. We look forward to working with all 
the stake-holders, including farmers and local governments; 
citizens; environmental groups, such as the Neuse River 
Foundation--Rick Dove, the Neuse River Keeper--and all others 
in cleaning up our waters.
    Once again, we're pleased to participate in this regional 
approach. We're ready to join whatever efforts are necessary to 
coordinate, and communicate, and understand this better. Thank 
you.
    [The prepared statement of Wayne McDevitt may be found at 
end of hearing.]
    Mr. Gilchrest. Thank you, Mr. McDevitt.
    I now will yield to the gentleman from Delaware, Mr. 
Castle, to introduce the next witness.
    Mr. Castle. Thank you, Mr. Chairman, and it is a pleasure--
an honor really--to introduce Delaware's Secretary of Natural 
Resources and Environmental Control--I think he has the longest 
name of anybody up there--Christophe Tulou, who is no stranger 
to these rooms, I might add. He worked with now Congressman, or 
Governor Carper--I get confused myself--Governor Carper as his 
legislative director, and helped develop legislation on sound 
coastal management involving the National Flood Insurance 
Program, and the National Marine Mammal Health and Stranded 
Response Program. He receives very high marks for continuing 
the outstanding policies of environment in Delaware by the 
previous administration and really responding well to the 
Pfiesteria issue. And we in Delaware, are very appreciative of 
all those things and we're delighted he was able to be here 
today. Christophe Tulou.

   STATEMENT OF CHRISTOPHE A. G. TULOU, SECRETARY, DELAWARE 
   DEPARTMENT OF NATURAL RESOURCES AND ENVIRONMENTAL CONTROL

    Mr. Tulou. Thank you, Congressman Castle. I appreciate very 
much the Committee's invitation to be with you today, and 
Governor Carper does send his best wishes to his friends and 
former colleagues. He certainly has fond memories of spending 
many hours in this room as a member of the now-defunct 
Committee on Merchant Marine and Fisheries.
    At any rate, Delaware has a very, very strong interest in 
this issue. We've had our experience with Pfiesteria in the 
past, as Congressman Castle mentioned earlier in the hearing, 
going back as far as 1987--and for all we know, maybe even 
before that. And, we have also found Pfiesteria-like organisms 
in our waters this summer. So we have an active interest and 
great concern for what's happening there.
    You will see in my written statement a lot of what's going 
on in Delaware and reference to a number of things that we are 
doing to try to address not only the Pfiesteria problem, but 
what we think are the root causes of that problem; and I will 
refer that to the members of the Subcommittee for their 
perusal.
    What I would like to do is just focus on what we perceive 
as the most fundamental needs, and they aren't terribly 
complex, and there aren't too many of them. But, certainly, 
first and foremost, in picking up on some comments that have 
already been made at the hearing so far today, is the need for 
our research efforts to be coordinated. We can't stress that 
enough. The State of Delaware, and certainly the Department of 
Natural Resources and Environmental Control, is not going to 
assume the primary research responsibilities for determining 
what's going on with Pfiesteria. I don't think that's an 
appropriate role. But what we do need is some good information, 
some good facts, and good science to rely on as we go to those 
portions of our community that are going to be responsible to 
help us address those problems. And certainly, the more 
particular research needs are defining even better what factors 
are responsible for the proliferation, the toxicity, and also 
the human health effects associated with Pfiesteria.
    Dr. Burkholder and her researchers and colleagues have 
certainly strongly indicated that nutrients are implicated. But 
they have also mentioned that the nutrient requirements of the 
organism are extremely complex, and I think we certainly need 
to pin that down better so that we can better direct the effort 
that we're going to need to exert to make sure that the basic 
problem is taken care of. And, I think that's the important 
point here, really. Pfiesteria is just one of many symptoms of 
a much larger problem that we're experiencing in our coastal 
waters. It's not a mystery to us that we need to be addressing 
aggressively nonpoint source pollution as well as remaining 
point sources, for that matter, recognizing that the efforts 
that we have made to date are obviously not getting the job 
done.
    We have a potential Pfiesteria problem in Delaware. We've 
wrestled with it in the past. We've got over-nitrification 
which is leading to a tremendous explosion of algae growth in 
our inland bays in Delaware creating large expanses of anoxic 
water--no oxygen--and that's just as poisonous as any toxin 
that Pfiesteria can create in terms of eliminating large 
amounts--and the large diversity--of living resources that we 
have in those waters.
    This is a critical problem, and I would say for a 
subcommittee that's looking for some advice on where we need 
assistance the most, it's not with the short-term issue alone: 
the long-term need to address those nonpoint sources of 
pollution is critical. Support for State nonpoint source 
pollution programs, watershed programs, and particularly, the 
total maximum daily load obligations that the variety of States 
are wrestling with right now, which is a mandate under the 
Clean Water Act but has for many years been woefully under-
supported, is probably one of the best areas of resource 
allocation that Congress and the States can work together on.
    So, with that statement, I'll be happy to answer any 
questions that you may have when the panel is finished.
    [The prepared statement of Mr. Tulou may be found at end of 
hearing.]
    Mr. Gilchrest. Thank you very much, Mr. Tulou. I'll 
recognize Mr. Jones once more for his next witness.
    Mr. Jones. Thank you, Mr. Chairman, I'll be very brief.
    I do want to recognize and welcome Mr. Rick Dove. For so 
long, Mr. Dove has been the voice in the wilderness as it's 
related to the pollution of the Neuse River down in my 
district. And finally, I know that he is delighted to see this 
day come about, and the many efforts that you've made--and 
through the past years he has had many people in eastern North 
Carolina, as well as the governor of the State, and people 
throughout the State of North Carolina to join his concern to 
help us try to find a solution to the problem.
    So, with that, I welcome you, Rick Dove, to the Committee.

    STATEMENT OF RICK DOVE, NEUSE RIVER KEEPER, NEUSE RIVER 
                           FOUNDATION

    Mr. Dove. Thank you, Congressman Jones, Mr. Chairman.
    For the past 20 years, I have lived on the shores of the 
Neuse River, certainly one of North Carolina's most beautiful 
and important resources. It's important to the health of the 
citizens, it's important to the economy of the State.
    In those more than 20 years, I have watched as this 
resource has been slowly wasted away. Between 1975 and 1990, 
the degradation of the Neuse River was slow but steady. But 
then beginning in 1990, there was an acceleration of pollution 
into the river, and as a result of that, the affects that we 
saw, including the massive growth of Pfiesteria in our waters, 
got to a point that we had never seen before.
    As a river keeper for the Neuse River, I am one of more 
than 20 licensed river keepers in the country. I am a full-time 
paid citizen representative on the Neuse River. My sponsor is 
the Neuse River Foundation, a nonprofit organization in Nupper, 
North Carolina. So, when I talk to you today about the river, 
what I want you all to know is that I'm giving you the 
citizen's perspective of what's happening--what's happened--on 
the Neuse and what is happening.
    As I said earlier, the Neuse is a beautiful river. We've 
had fish kills for a long time on the Neuse River. I've talked 
to the old-timers extensively. I spend a lot of time on the 
water, flying over the top of it, talking to fishermen, talking 
to people who've lived there--some of their families have been 
there for hundreds of years. And, you get a pretty clear 
picture of what's been going on in that river through those 
people--through their eyes. And we know that we've lost fish 
for a long period of time on the Neuse, mostly as a result of 
low oxygen levels which also has a pollution connection. But, 
we really never began to see Pfiesteria on the river until the 
mid-1980s and by the 1990s--and at that time I was a commercial 
fisherman, I actually gave up fishing because I could no longer 
stand to see the fish coming out of the river and the crabs 
with their sores.
    So we began to see fish with lesions in large numbers. By 
1991, we lost a billion fish on the Neuse River. It's hard to 
imagine a billion fish dead on one river. But I promise you, 
they were there. There were so many dead fish that they were 
using a bulldozer to put them into the beach in some areas. The 
stench from the fish was so bad that people didn't even want to 
go outside their houses.
    Very few of us, and I don't think any of us, knew back in 
1991 what was causing the fish kills. We knew it wasn't low 
oxygen because we were testing for oxygen and the oxygen levels 
were fine.
    Again in 1995, we lost 10 million fish. Now, the Neuse 
River Foundation is the one--it's members were the ones--that 
conducted that survey, and we did it as scientifically as we 
could. We only counted dead and dying fish on the Neuse for 10 
of the 100 days they were dying in 1995. But clearly, that fish 
kill was not as bad as the one in 1991.
    We've also had fish kills and fish with lesions on all the 
other years. Some years are better than others. In 1997, this 
year, we have documented the loss of over 390,000 menhaden fish 
with sores, very similar to the picture that I have given to 
each of you.
    We also noted, beginning back in 1995, that we've had a 
number of our citizens--our fishermen, our bridge workers, and 
others who were working on the water--reporting illnesses 
related to Pfiesteria. As a matter of fact, in 1995, the State 
health director called me personally and asked me to send in 
the names of all the people that went out on the boat, from the 
media and others who would go out on the river, to give them 
their names so that they could ask them whether or not they 
were suffering any problems. Not surprisingly to me, 47 percent 
of the people that were interviewed said they had problems that 
were related to Pfiesteria--or at least their problems could be 
related to Pfiesteria. Yet in all that time, including to 
today, the State health director in North Carolina has refused 
to acknowledge one existing case of Pfiesteria in humans in 
North Carolina. We know it affects the fish, but does it affect 
people? There's no doubt in the minds of the people who live on 
the lower Neuse, but we still are searching for the truth in 
North Carolina when Maryland has been able to find it in a 
matter of months.
    Now there's been a number of things that have happened--
good things. We feel very fortunate that we have a new 
secretary for the environment in North Carolina, Secretary 
McDevitt. He has done a lot of good work already in the few 
days that he has been doing this job. He has come to grips with 
the truth of what's been happening down on the lower Neuse and 
I'm so encouraged by the fact that he is our man in North 
Carolina and we're going to be able to work together. But, 
we've got a long way to go. He has no control over health in 
North Carolina; that's under a different secretary. We must 
come to grips with the health problems we have in North 
Carolina as a result of Pfiesteria and other pollution sources 
in the river.
    The other thing that we need to do is we need to get busy 
about fixing the real problem, which is not Pfiesteria. 
Pfiesteria, as you've heard from so many of the other panel 
members, is only a symptom of pollution. Pollution is the real 
problem. It is important that you allocate money for research. 
Please don't not do that. You must do that. But spend that 
money wisely.
    We've got Dr. Burkholder in North Carolina. This bill that 
Congressman Jones has introduced to fund a research center in 
North Carolina--certainly we need a research center in North 
Carolina. North Carolina--Maryland today, is seven years behind 
where North Carolina is. We've had these problems in North 
Carolina for seven years now. So we need that research. But we 
really need--and we need it on North Carolina waters. But we 
really need, more than anything else, we need to get pollution 
reduced in our bodies of water. That's the real answer. We may 
even be able to solve the Pfiesteria problem without ever 
understanding it if we simply reduce the pollution levels.
    I know my time is up and I want to end just with a couple 
of solutions that have already been mentioned by the other 
panel members. We have one great law in this great country of 
ours, it's called the Clean Water Act. It has really helped 
save our rivers from very serious degradation over the 20 
years. But it has been very poorly enforced in certain key 
areas. The total maximum daily load provision of that law, 
section 303(d), mandates that States, when they have waters not 
meeting their designated use, find out what is the pollution--
what is the pollutant--that's causing the problem, and then to 
establish a total maximum daily load for that pollutant so that 
the river is restored, mandatorily restored, to its designated 
uses. States across this country, including North Carolina, 
have not followed the law. They simply have not followed it and 
the EPA has not enforced it.
    We are currently--the Neuse River Foundation has currently 
got a suit pending against the EPA on that very issue. We must 
enforce it. That law empowers citizens like me to do things to 
protect the water. The citizens of this country own the water.
    The other thing is that the law needs to be broadened and 
strengthened to include nonpoint sources. It's hard to believe, 
but it's true, in North Carolina we have 10 million hogs. We 
are the number two producer of hogs, the number one producers 
of turkeys, and the number two producer of chickens. Those 10 
million hogs are producing the equivalent feces and urine of 
all the people in the States of New York and California 
combined. It's stored in open pits. It's not disinfected before 
it's thrown on fields. Those fields are all ditched to carry 
runoff to streams, creeks, and rivers. What's really 
frightening is that 80 to 90 percent of all the nitrogen 
produced by animals: chickens, turkeys, and hogs--I don't know 
about chickens and turkeys, it may be a little less 
percentage--but on hogs, according to USDA, 80 percent of all 
the nitrogen produced by those animals is discharged to the 
environment as ammonia gas--that's another form of nitrogen. It 
travels about 62 miles and 100 percent of it is redeposited on 
their church yards, their school yards, our rivers, and our 
forests.
    Rivers do not have an assimilative capacity. They do not. 
One of the mistakes we have made in this great country of ours 
is that we have assumed that they do. That we can put 
pollutants into water, into rivers and streams, without 
degradation. We've done that with pipes to the river called 
point sources, and agricultural runoff that we've allowed to 
get into the river. If we want to save ourselves from 
Pfiesteria and other micro-organisms like it, we must realize 
that rivers do not have an assimilative capacity. Nature sets 
up a balance for them and everything we do to them upsets that 
balance.
    Thank you, sir.
    [The prepared statement of Mr. Dove may be found at end of 
hearing.]
    Mr. Gilchrest. Thank you, Mr. Dove. Your testimony has been 
very compelling. I'm going to yield first to Mr. Jones, because 
he has to leave for another appointment. So Walter, you're 
recognized.
    Mr. Jones. Thank you, Mr. Chairman. I have a couple of 
questions of the secretary of North Carolina as well as Mr. 
Dove.
    Mr. Secretary, would you please tell the panel how much 
money the State of North Carolina has invested in the areas of 
trying to deal with the water problems, whether it be 
Pfiesteria or other problems that we might have had in the 
seven years since the State has become aware of it?
    Mr. McDevitt. I'm not sure I have those numbers for seven 
years. I can tell you that during the last two years, that 
number is in the range of $147 million of State money. That 
includes a Clean Water Management Trust Fund. We put about 6\1/
2\ percent of remaining funds after the budget is complete into 
a fund and that's anywhere from $40 to $50, $55 million a year. 
And, in addition to that, we just, of course, passed the Clean 
Water Responsibility Act. We've significantly increased our ag 
share program, working with the farmers on BMPs and so forth; 
so, $147 million if you total that.
    Mr. Jones. Let me--in a statement that Mr. Dove made and I 
want the panel to understand--the Committee, excuse me--that 
farming is important in North Carolina. It is a way of life, it 
is a way of people earning a living. And I think that the State 
of North Carolina, Mr. Secretary, I'd like you to speak to 
this, has tried to find that balance between the hog industry, 
as far as responsibilities shared, in an effort to try to 
ensure that we are protecting our waters.
    Mr. McDevitt. Yes, the thing that we certainly know is that 
we have a nutrient problem in the lower Neuse. I mean, all of 
us know that, and we have a serious problem there, and there's 
enough--the causes are both point source and non-point source. 
They--it's everything, Congressman, from the agricultural 
industry to municipalities, industry, homeowners, developers, 
golf courses, sedimentation control problems, urban runoff, and 
all of us share in that problem, and all of us share in the 
responsibility of fixing that problem. In the--over the past 
few years, we--I don't know how deep the debt is, but in terms 
of a natural trust, in terms of the natural trust that we hold, 
and we must pass on, we've borrowed a little too deep into that 
trust, and we've got to pay back, and we've got to pay that 
back now, and we must understand that, and that goes across the 
board, Congressman. I think all of us share in that.
    We in North Carolina, in this past legislative session, we 
established a moratorium on expansion or new hog farms, and we 
believe that during that moratorium, we can establish, 
hopefully, more clearly--we're doing research relative to odor; 
relative to nutrient load, and during that moratorium--and 
that's not enough; we've got to do more--but during that 
moratorium, we hope to use that time to do the research 
necessary to clearly establish where some of the 
responsibilities lie. We know that it's all of us.
    Mr. Jones. Thank you. Mr. Chairman, if I could ask Mr. Dove 
just a couple of questions? I'd like to start with this leg 
with the sore on it. If you could tell the panel--the Committee 
a little bit about this individual, and if you would--as you 
talked to me a little bit earlier--about the concern that you 
have that there are many people in the State that possibly are 
sick because of this problem, and, obviously, you made in your 
statement a concern that maybe the State--and I think that's 
very helpful with the Sec-

retary being here--your comments about maybe the State not 
doing as much as you would like to see them do, and maybe other 
people feel the same way. Could you speak to this just briefly?
    Mr. Dove. Yes, sir, I will, Congressman. Those sores are on 
the leg of a man by the name of Roy Rice. He is a clammer. He 
spends physical time in the water, not in a boat, over the top 
of it, but actually walking in the water; he gets wet a lot. 
He's fished in the Neuse River; he also fishes the inside water 
of the outerbanks. If he wears protective clothing, like a 
glove on one hand, he doesn't get the sores where he stays 
covered, but in all areas of exposure he get the sores. He's 
had memory loss to the point where he's not been able to find 
his way home in his own neighborhood. He can't--like so many 
fishermen and so many others, he cannot afford a doctor, so 
he's never been to a doctor that I know of, but he did ask the 
State to have somebody take a look at him, and we actually 
asked the State, epidemiologist, Dr. Stanley Music, and 
introduced this man to him personally. He's also been on 
national television, this individual, to have somebody take a 
look at him. To my knowledge, he's never been examined.
    I'm not a doctor or scientist; I can't know and do not know 
whether these people are getting sick from Pfiesteria in the 
water, but I can tell you that my judgment is that the sores 
look the same; the symptoms are the same, and as I look at the 
experience in Maryland and what has been discovered there, 
what's been happening in North Carolina is echoing what has 
been reported out in Maryland where they have documented these 
illnesses. But we've never had a team of doctors; we've asked 
for it--there are no--to go down on the Neuse and the Tar-
Pamlico and actually examine these people as they did in 
Maryland. We've been asking for that since 1995. There are no 
protocols for local doctors in Newborn, Elizabeth City; 
anywhere along the coast to report to the health director, to 
my knowledge, these illnesses that these people are reporting, 
so we've got a lot of work to do. I would like to point out, 
Congressman, that the health department in North Carolina is 
not under Secretary McDevitt; it's under a different secretary.
    Mr. Jones. Thank you very much. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Walter. I yield to Mr. Castle.
    Mr. Castle. Well, thank you, Mr. Chairman. Just listening 
to this whole conversation, this morning and this afternoon, it 
seems to me that--as I think Mr. Dove said or one of you said, 
at least--that Pfiesteria is only a symptom of pollution, and I 
think that's correct, and I worry about the--I guess we're 
dealing with the point source better than we used to, but I'd 
be curious as to the views of any of you, with respect to the 
different groups, the larger groups which may be involved in 
non-point source problems: the poultry industry, the 
agricultural industry, the golf course makers, the towns and 
the non-point part of what they do, the runoff from roads, 
whatever it may be. Are we getting cooperation? Are we moving 
up on that? I mean, ultimately, we may solve this problem 
without ever really being able to identify, truly, what the 
problem is if we can do better in those areas, and I know when 
I was governor, we kept trying to push this, and I'm sure all 
of your governors are as well, and I just wonder if you could 
give me a State update of how you feel we're doing in those 
areas?
    Mr. Tulou. I'll take a first shot at it. There are a lot of 
initiatives going on in, I presume, all of the States to deal 
with that whole suite of problems: working with municipalities; 
with sediment and storm water control programs; dealing with 
the agricultural community through best management practices 
and in investments through cost share programs; a variety of 
manure management and dead poultry techniques, for example.
    I think the biggest problems we have right now are: one, 
land use and the associated increase in population that's going 
along with it; more and more pressure being applied on the 
system, and I'm not sure our measures are keeping up, and I 
think the other thing that we need to continue to work on is 
our ability to measure what the effectiveness of these variety 
of programs is, because I can foresee a day when we are going 
to have to consider a course of action far beyond what we have 
already engaged those parties with, and we're going to need 
some good, solid foundation to justify those actions.
    I would imagine, as John Griffin mentioned, and certainly 
some frustration in North Carolina too, with all this activity 
that has taken place through the years under the Clean Water 
Act to deal with point sources, and we're starting to deal in 
some ways with non-point sources, a great deal of frustration 
that we're beginning to see some problems instead of seeing the 
old ones go away, so there's a tremendous amount of effort 
that's left to be undertaken.
    Mr. Castle. Anybody want to add to that quickly, and we 
can----
    Mr. Griffin. Yes, I would say, Congressman, our experience 
in Maryland--they're still pretty much in the nascent stages on 
addressing urban runoff. I mean, it's true, we've had more 
sediment and storm water control programs implemented primarily 
through our government since the mid-eighties, but that's 
really addressing redevelopment or new development. In the 
unchartered waters, we've really not done quite a lot, or much 
at all yet, as retrofitting: coming into areas that are already 
developed and figuring out how to deal with runoff of urban 
areas.
    On the agricultural side, we certainly made a major effort, 
through our Department of Agriculture, to reach out to the 
farming community and enlist their support, and we spent a lot 
of money both in terms of staff and cost sharing. I think what 
this issue raises is not necessarily the good will or 
intentions of us to the farming community members as much as it 
raises issues with how effective our thinking has been about 
how best to control some of the runoff, some of the animal 
waste. And the science is changing on us. You may have heard 
earlier the phenomenon in scientific thinking that phosphorous 
was bound up in the soil particles and now that's not the 
thought, and that changes dramatically how you approach runoff. 
But in general, I think that we've come farther in terms of a 
foundation with the farming community interest than we have 
with urban Maryland, if you will, and that's an area that we 
need to spend a lot more time on as well.
    Mr. Castle. But I worry a little bit that we're sort of 
burying our heads in the sand, and so are some of the different 
groups, they're all saying, ``Well, don't look at us,'' and I 
doubt if any one of them is the sole factor that we have these 
problems be they low oxygen problems or Pfiesteria problems or 
whatever, but the bottom line is that in the aggregate those 
problems still exist, and we have to have the courage to stand 
up and say we need to talk about this in a good communication 
sense, and this business of saying, ``Well, leave them alone'' 
is probably not healthy in the long term for their industry or 
for solving these problems.
    Let me jump to another question, I only have a moment here. 
And that is, do you have any comments concerning what the 
Federal Government is doing or should be doing? My view is--I'm 
not, as I said earlier, you've probably heard from my other 
questions--but I'm not interested in funding a series of 
different research centers in different States or whatever. I'm 
interested in solving the problem. I'd just as soon have all of 
you together, talking with everybody who is knowledgeable about 
this, and my question is are we doing the right things at the 
Federal Government level? Are there other things that we should 
be doing, either with existing funds and programs or different 
funds and programs? Any thoughts along those lines? I mean, 
that's the one thing we can really control here.
    Mr. McDevitt. Congressman, I think, first of all, just 
these kinds of hearings, the kind of attention, often, in order 
to make the tough decisions, it requires a number of things, 
and sometimes--I don't know what all it requires--but 
sometimes, through magic, we're able to have the kind of 
legislative session we just had in North Carolina, but most 
importantly, it takes public will, and this--and these kinds of 
hearings, media attention, those kinds of things; having people 
like Rick Dove always calling on you and saying, ``Do you need 
to do more?'' That's--I must tell you, that's helpful. In my 
seventy-some days, he's become a friend and a colleague.
    But to answer your question, certainly, we need a lot of 
money and research, and we must know--we've got to know what we 
don't know about Pfiesteria, but beyond that, some assistance 
with innovative ways to treat animal waste; assistance with new 
technologies and new ways to look at the treatment of animal 
waste, I think, is important. Looking at the Clean Water Act, 
not only in terms of reauthorizing but also looking at what we 
can do in terms of non-point source, I think is something in 
the bigger picture that we can look at.
    Last--I had a role in the coordination of North Carolina's 
response to following the Fran, Hurricane Fran, in North 
Carolina. There was a tremendous loss to North Carolina, and as 
I think about that response and how we very quickly went into a 
mode in North Carolina and very quickly knew who our Federal 
partners were and how we could enter a system that's sometimes 
confusing and complex, and get things done in a very short 
period of time, perhaps, we ought to look at that model, and 
that model of partnership and, perhaps--I don't want to say 
that level of emergency, but, certainly, a level of urgency. 
And, so I think just--and I feel that now. We know more now 
than we've known--you know, we know more today than knew 
yesterday, but I do believe that those are just some thoughts I 
would have relative to that.
    Mr. Tulou. Just very quickly, if I could, add to that. I 
think that through all the testimony that I've heard during the 
course of this hearing, we already have ample evidence that 
people believe that a coordinated approach is important, and we 
also have a lot of evidence that a coordinated approach has 
already been taken, and I think that, for example, the Centers 
for Disease Control, EPA, the National Marine Fishery Service, 
The Fish and Wildlife Service, and congressional action; some 
of the initiatives that you and Congressman Gilchrest have been 
engaged in terms of finding resources have always been geared 
towards a regional approach and some coordination in terms of 
coming to a resolution of the problem, and I think that's to be 
commended. I don't see a real problem there, but I think that 
the coordination is more important than the money, and I don't 
know how best to make sure that's happening, but certainly the 
oversight of this Subcommittee would be very helpful to make 
sure that EPA's talking to the Department of Commerce and NOAA 
and the Centers for Disease Control, and if we can continue to 
do that, I suspect at the State level, we'll doing our share of 
insisting on that as well. We're already coordinating and 
talking, and I think that that will continue.
    Mr. Castle. Well, let me just close, if I may, Mr. 
Chairman, by just saying that I agree with what you've stated. 
I think you probably have more depth of knowledge than I do 
about the programs. In fact, Wayne and I were talking a little 
bit, walking over to the votes, that it's fine to pass 
amendments and do this and do that and get money here and 
there, but it's not a coordinated approach. We aren't solving 
the problem the way we should, and I think it's very important 
that we continue that communication, and I would like to thank 
Rick Dove for his involvement and for being here. We have some 
Rick Doves in Delaware too, and sometimes I'm happy to hear 
from them, and sometimes I say, ``Boy, they're pushing me a 
little further than I'm ready for.''
    [Laughter.]
    Mr. Castle. But it's people like you who make a difference.
    Mr. Dove. Can I add just one quick comment in response to 
your question?
    Mr. Castle. Certainly.
    Mr. Dove. One of the problems the State's have is that down 
in the trenches--now, you're talking about this coordinated 
effort and all; that's great--but down in the trenches is where 
it happens and doesn't happen, and when you talk about cleaning 
up pollution, what's tough for the States is that the guy's 
with the biggest bucks--well, they all point to the other guy. 
When you go to them and say, ``You're doing this, and you need 
to fix it''--everybody wants a clean river, but they want the 
other guy to fix it, and then they begin to employ the 
lobbyists and everything else so they don't have to do their 
fair share.
    On the Federal level, if you strengthen the Federal Clean 
Water Act, you will make it easy for the Wayne McDevitts of 
this world, the governors across the United States, to actually 
get this job done. I think that's why it's so important that 
you do that. We need to stop this finger pointing. Congressman 
Jones was right, farmers are important to North Carolina; 
nobody wants to see them go away, but we want to see hog 
lagoons go away; we want to see open storage of chicken and 
turkey waste go away, and we want to see waste water treatment 
plants reduce--take their pipes out of the river wherever 
possible, and then certainly reduce their nitrogen discharge to 
the technology available.
    Mr. Castle. Thank you very much.
    Mr. Gilchrest. Thank you, Mike. I'm going to ask a few 
questions, and if you have a few more in the next five minute 
cycle, the panel doesn't look like they want to leave anytime 
soon, so we'll enjoy the Nation's Capitol.
    Mr. Dove, I'd like to follow up on that one point, your 
comments earlier and your comments now about strengthening the 
Food and Water Act and giving the governors the Federal 
regulations that they need to push some of these non-point 
source pollution concerns a little harder. If we could put that 
aside, just for a second, using the experience that we've had 
here, whether it's Maryland, Delaware, North Carolina, or 
wherever, could you sort of summarize to us the collective 
responsibility of those in a position to deal with non-point 
source pollution, but chose not to deal with non-point source 
pollution, whether it's out or not--I'm talking about the 
planning commissioner of every county, the county executive, 
the county administrator, the local delegates to the general 
assembly, the governor of the State, their department of the 
environment, their department of fish and game, or whatever? Do 
you have some sense of the collective responsibility of those 
people regardless of the Clean Water Act and the Federal role, 
who, out of a misunderstanding or out of direct misuse of their 
power, chose not to deal with this non-point source pollution?
    Mr. Dove. Mr. Chairman, I can. I think it all comes down to 
dollars. The real client involved is the water; fixing the 
water. Everybody should be taking care of that client which is 
the water, but, instead, others creep in as the client: the 
farmers, the industrial guys, the developers. They all become 
the clients, and all of sudden we begin to take care of them 
and take care of their needs to the detriment of the real 
client which is the water, and Secretary McDevitt and I had 
conversations about that.
    When a crisis comes up on the lower Neuse, there's great 
economic suffrage going on on the Neuse River; beautiful river; 
it's a treasure. We ought to be doing so well along the Neuse 
River because of the beauty of this river, and, instead, we're 
losing business; fisherman are going out of business, can't 
make a living; same experience as in Maryland, but what happens 
when that takes place is that local county governments begin to 
respond taking pipes out of the river as they have at Newborn; 
developing plans to begin to take care of the river, but while 
that happens on the local level, it's almost impossible to move 
it up stream to take it to the small towns that go further and 
further upstream. So, it's, again, we're serving the wrong 
client. A lot of times we're taking care of waste water 
treatment plants, allowing cities to grow--you know that old 
statement, ``We got to keep growing and growing and growing.'' 
Well,----
    Mr. Gilchrest. It's almost like an oxymoron.
    Mr. Dove. It is.
    Mr. Gilchrest. I guess what you're saying then is what 
we're talking about, the collaboration between Federal, State, 
and local agencies and universities, in order to understand the 
nature of Pfiesteria, that same kind of collaboration needs to 
be done if we're looking at Federal laws as far as the 
environmental solutions are concerned and environmental 
regulations.
    I'd like to just take this thought one step further, and 
ask the three secretaries, basically--I'm going to ask this 
question, because, on the one hand, I don't know how big the 
Neuse River is. I don't know how to compare it to the Pocomoke 
Sound or the Pocomoke River or James Creek or the Chesapeake 
Bay, but one thing is very striking and that's a billion fish 
in one year, I guess.
    Mr. Dove. In a matter of a couple of months.
    Mr. Gilchrest. In a matter of couple months. I'm looking at 
a billion fish in one area and maybe--you made a comment about 
300,000 at another time, and I'm looking at 50,000, maybe, in 
Maryland, and, maybe, 50,000 in Delaware a few years ago. What 
role should secretary of the Department of Natural Resources--
what is their responsibility to responding to a crisis like 
this? Do they--are they subject to--are you subject to 
political pressure? Everybody's subject to political pressure, 
but how far should a secretary of the Department of Natural 
Resources go to respond to a crisis? Is there a limit to the 
number of people they should talk to? Should they take in the 
political considerations, economic considerations, hysterical 
considerations? What's the specific role of the secretary in 
responding in a timely fashion, comprehensive fashion, to an 
incident in the State, whether it's 50,000 fish or a billion 
fish?
    You've got 15 seconds.
    Mr. McDevitt. Fifteen seconds. First of all, I would say 
that I believe that the public should have confidence in their 
public officials. They should be confident that their public 
officials, whether that's the secretary of the department--it 
should not be about me, the secretary, or about the governor, 
it ought to be about doing the right thing. It ought to be 
about having a systemic approach and partnership in place that 
allows us to do the right thing and has the protocol so that we 
do the right thing at the right moment. But it's also about 
leadership; stepping forward and doing the right thing and 
providing that leadership. I believe that that's the case. I 
know that we must depend on good science to make good 
decisions. I'm not a scientist, but I believe, as my friend 
from Maryland believes, that good public policy sometimes just 
must be ahead of absolute science. We've got to step out there, 
and whatever risk that is--we must also consider, though, 
making sure that we're not creating--we've got to be 
responsible that we're not creating hysteria; that we're not 
creating undue pressures on certain economies. I know we've 
read--and I know it's anecdotal--but we've read about the 
numbers of and the impact of this on some of our markets, and 
we must be responsible as we go through these urgent matters.
    The other thing I would say is that gaining consensus on 
these kinds of things, particularly, nutrient controls, whether 
it's point source or non-point source, as Rick said, gaining 
consensus on that is very difficult, and--very quickly--there 
are lots of parties at the table, and there are a lot of 
decision makers in that process, but gaining that consensus is 
very difficult. It's also incumbent upon us, as leaders, to get 
out there and provide the leadership to gain that consensus. We 
feel like that in North Carolina, we're beginning to get the 
kind of tools necessary to do the job. We've got to do a lot 
more, but we're beginning to get the kind of tools to begin to 
do the job and do it well and----
    Mr. Gilchrest. Can I ask, Mr. McDevitt--and I don't want to 
pick on North Carolina; I spent two wonderful years in North 
Carolina at Camp LeJune, one of the finest places----
    [Laughter.]
    Mr. Gilchrest. [continuing] one of the most beautiful 
places on the face of the earth.
    Mr. McDevitt. They have a great environmental program 
there, too, I might add.
    Mr. Gilchrest. Got to keep those copperheads alive.
    If I could just ask--my time has expired, and--Mike, do you 
have any more questions? All right, I'm going to go to Mike 
after this quick question. Any of the other secretaries can 
answer this.
    One of--we're talking about sewage treatment plants, runoff 
from streets, runoff from lawns, air deposition, ag runoff, a 
whole range of things, and some dramatic changes, probably, 
have to occur in a relatively short period of time, so have to 
know how to transition ourselves into those fairly dramatic 
changes. One of the dramatic changes, it seems to me--and Ken 
Staver's here from the University of Maryland and the Wye 
Institute who has done some very fine research on agriculture 
and nutrients, and for about 10 years--Ken can correct me for 
any mistakes I make while I'm up here--for about 10 years, it's 
been fairly evident that phosphorous becomes dissolved; moves 
along the surface with rain water, and so that there's a number 
of areas, for example, on the Eastern shore where soil has 
exceeded its capacity to process any more of that phosphorous, 
so it moves into the water.
    Mr. McDevitt, you mentioned that there are going to have to 
be some changes in agricultural practices to reduce this 
nutrient runoff. Nitrogen is one of those things that we, in 
Maryland, have been pretty aggressive with, but now we're going 
to have to transition into understanding how we can control 
phosphorous which is a little bit more complex. Is North 
Carolina, in your ag program, going to consider phosphorous? I 
think it also--one last little comment--I think this is going 
to be a national issue, so it's not the fact that Maryland has 
to deal with it or North Carolina has to deal with it or 
Delaware has to deal with it, it's on a fast track to becoming 
a national standard. Do you have any comment on phosphorous as 
far as the hog farms are concerned?
    Mr. McDevitt. Let me ask Dr. Thorpe to--if he would--to 
respond to that particular question of phosphorous.
    Mr. Thorpe. Well, we would certainly agree that we 
shouldn't just focus all of our attention on nitrogen--excuse 
me while I try to get a little comfortable here.
    [Laughter.]
    Mr. Thorpe. We recognized in North Carolina in the mid-
eighties that phosphorous was a problem in the Neuse River. We 
put restrictions on waste water treatment plants at that time, 
and in 1987 there was a ban put in place by the general 
assembly on phosphate detergents that, overall, reduced the 
discharge of phosphorous from waste water treatment plants by 
about 50 percent. As far as agricultural operations are 
concerned, we have focused primarily on nitrogen, because 
nitrogen is very soluble, and it's very mobile in the 
environment, and that's been our focus so far in the rules that 
we've been trying to get put into place in the Neuse River 
basin.
    Mr. Gilchrest. It's a difficult question, because we don't 
have the complete answer to it yet, either, and we've focused 
on nitrogen. Phosphorous, however, it seems to me, that this is 
a dramatic change that we have to transition into, and I'm not 
going to say the farmers are going to control phosphorous by 
January or even next year, because we have large piles of 
manure that nobody wants. And where does it go? And it adds a 
great deal of confusion to the farming community, and talk 
about wanting to develop trust between ourselves and the 
public, we don't want to throw a 98-mile an hour curve ball at 
anybody at this point, but it just seems to me that the 
phosphorous issue is an issue that every single State in the 
country, especially those areas that have large concentrated 
feed operations, are going to have to deal aggressively with 
it, because if we're going to enforce all the provisions which 
have been here earlier of the Clean Water Act, then the total 
allowable daily load, if that's enforced, then we have to have 
an answer and a solution to the phosphorous problem.
    But I sort of just raise that as an issue that, certainly, 
is up--the level of that issue is here, now, in Washington, and 
that's being discussed aggressively, but if the States don't 
begin the process of coming up with solutions to what you're 
going to deal with the animal--how you're going to deal with 
the animal waste; how you're going to redistribute it; whether 
you incinerate it; whether you feed something to the hogs and 
chickens that doesn't produce as much phosphorous; all of these 
issues are--you know, the public is looking to us for answers.
    Mr. Thorpe. If I could, I would like to mention that part 
of what we have proposed to do in the Neuse River basin is to 
put into place some mandatory controls on agricultural 
operations that would require them to go through nutrient 
management training, and to put into place nutrient management 
plans and waste management plans that do require the farmers 
and the operators of agricultural intensive livestock 
operations to control both nitrogen and phosphorous through 
those mechanisms.
    Mr. Gilchrest. I'm going to thank you very much. We'll try 
to make sure there's a chair there next time you answer a 
question.
    [Laughter.]
    Mr. Gilchrest. I'm going to yield, now, to the gentleman 
from Delaware.
    Mr. Castle. Well, just briefly, and this is--maybe I should 
have asked this before--I think Dr. Burkholder's still here--
but I was--low oxygen bubbles were mentioned, and I was 
wondering about the relationship--and I guess there's a 
relationship in that there's water, and there's, maybe, too 
many nutrients and that kind of thing--but is there any 
possible relationship between this low oxygen bubble issue and 
the issue of Pfiesteria outbreaks?
    Mr. Baden. Yes, let me address that, just briefly. First of 
all, I think we're talking about coastal pollution; somehow we 
got away from Pfiesteria and into more nutrient enriched areas 
and making the assumption that all the science is in that 
nutrient enrichment is, indeed, responsible for Pfiesteria, and 
if you look along with the Pfiesterial blooms in these areas 
and in North Carolina, we're talking about other types of 
organisms that are also toxic: peridiniopsyoid organisms, 
gyrodiniums, that also cause fish kills, the Pfiesteria, of 
course in Maryland fish farms, and scripsiella-type organisms.
    Now, all of those individual organisms have different types 
of nutrient requirements, and, as I made in my testimony, some 
are adversely affected; some are promoted by increased 
nutrients, and we have to be very careful, because if we--I 
think that reducing the nutrients is a wonderful and the Clean 
Water Act and all of that, but I'm not so sure that once we do 
that, you may just have cleaner water to see your Pfiesteria.
    So, you know, we have to be a little bit careful, and at 
the same time, study that organism in detail to know about the 
nutrient requirements, and that goes directly to the Chairman's 
comments about phosphorous with phosphorous being limiting in 
most of these environments; There is enough phosphorous in all 
stages of the bloom, but each individual organism is different 
in its requirements.
    Mr. Dove. Excuse me, but, Congressman, can I answer that 
question that you had based upon what I've seen on the Neuse 
River?
    Mr. Castle. I'd be also interested in knowing what causes 
the low oxygen bubbles. I mean is it--as scientifically as you 
can say it, too. Maybe I don't understand that.
    Mr. Dove. Yes, sir. I can give you the non-scientific 
explanation, but maybe it will be the easiest one to 
understand, because it's been explained to me so many times, is 
that when you have nutrients that get into the water on the low 
oxygen side--when you have nutrients that get into the water, 
they cause things to grow in the water in larger numbers than 
they would on ground, because water's more sensitive to 
nutrients. When those things grow, especially algae from the 
plants, they photosynthesize during the day, and produce a lot 
of oxygen in the water, but at night they respire, because 
there's no sunlight, and they suck the oxygen out of the water 
like a vacuum cleaner, and on the Neuse River we can see 
millions of fish of all sizes up in one inch of water just 
trying to work their gills to get through the night; get enough 
oxygen to make it through the night; a lot of times they don't. 
When the sun comes back up, the oxygen returns, because the 
plants begin to photosynthesize again. When you have too many 
nutrients, and you have too many things growing, then you upset 
that balance, and that causes the oxygen to be depleted.
    But the answer to your question earlier, sir, from my 
observations on the river, there is no relationship between low 
oxygen levels and Pfiesteria. The reason I say that is that I 
have been watching this river very closely, and the Neuse River 
is a good area to observe Pfiesteria; it's where the largest 
kills have occurred. In the summertime, in the months of June 
and July, when the oxygen levels begin to drop, July, even into 
August, fish do die from oxygen losses, but they don't show 
sores, and you don't normally find Pfiesteria in the water 
samples, but then the oxygen levels return to normal in 
September, October, November, even into December, and that is 
always when we've had our largest fish kills on the Neuse 
River. Now, I've heard some scientists say that, ``Well, gee, 
when the oxygen levels get down, the fish get wounded, they get 
hurt, and then they're more susceptible to Pfiesteria,'' but 
that is not my observation of watching it out in the river, 
sir.
    Mr. Castle. Well, it would sound to me--maybe Dr. 
Burkholder wants to comment--it would sound to me as if the--
while they may be different problems, a lot of the causes are 
the same, if not identical, based on what I'm hearing from 
here.
    Ms. Burkholder. I think that's true. Some of the organisms 
that Dr. Baden referred, in fact, most of them are autotrophs, 
that is, they're algae, and they tend to be stimulated, in 
general, by nutrients to some degree. In terms of Pfiesteria 
and Pfiesteria-like cousins, so far the experiments we've done 
have indicated that they can be strongly stimulated by high 
nutrient enrichments especially in poorly flushed areas, but 
the dissolved oxygen connection, as Mr. Dove points out, is 
only indirectly present. Pfiesteria-like species, including 
piscacida, feed upon algae many times when fish are not 
available, and when there are lot of nutrients that stimulate a 
lot of algae, then there will be a lot of Pfiesteria waiting 
for schools of fish to come up estuary. When dissolved oxygen 
has been low because of all those algal blooms taking the 
oxygen and robbing the oxygen from the water at night so that 
fish can't breathe, you often find Pfiesteria in those areas. I 
think that fish that are stressed are easier targets for 
Pfiesteria, but they don't have to be stressed for Pfiesteria 
to kill them. We've lost 1.2 million fish this year on the 
Pamlico, on the Neuse estuaries in combination in North 
Carolina, during June and July, before low dissolved oxygen 
even came into our bottom waters.
    Mr. Castle. Thank you. Thank you, Mr. Chairman. I 
appreciate the opportunity of participating today.
    Mr. Gilchrest. Thank you, Mike. Dr. Baden, you're from 
Florida.
    Mr. Baden. Correct, University of Miami.
    Mr. Gilchrest. Have you had similar--is there any--have you 
seen any of these similar type fish kills in the estuary along 
Florida? When was your first association with the incident of 
Pfiesteria in North Carolina, and how was that evaluated in 
your lab? Could you give us some idea as to--I asked this to, I 
think, Mr. Garcia, earlier on the panel--there has apparently 
been a regime of research over the last six months that is 
recognizing the existence of Pfiesteria or Pfiesteria complex 
without understanding, I would guess, the nature of the 
chemical makeup of the toxin and what exactly that does and 
what causes the Pfiesteria to go into that particular stage. 
So, the third question I have--if you can remember the first 
two, because I don't----
    [Laughter.]
    Mr. Gilchrest. [continuing] the third question I have, is 
do you have some idea as to when this research can come up, 
after peer reviewed, to some conclusion?
    Mr. Baden. Okay, the answer to your first question as 
referred to when was it first seen in Florida? The organism is 
present in Florida. We do not, as of yet, to my knowledge, have 
major fish kills that we have characteristically identified 
with a Pfiesteria or-

ganism, but we do have a very similar organism in Florida; 
that's the first question.
    The second question referring to the Pfiesteria outbreaks 
in North Carolina, I've been associated with Dr. Burkholder and 
with Dr. Noga since 1991 in working on Pfiesteria toxins, and 
I--along this line, I guess I can say that in the case of toxic 
purifications and characterizations, one of the critical 
elements--well, actually there are three critical elements: 
they're are material, material, and material. And in that 
regard with a Pfiesteria organism we have massive cultures of 
this organism in order to be able to characterize the toxin, 
and let me explain. In the case of paralytic shellfish 
poisoning, back in the forties, fifties, and sixties, there was 
a tremendous amount of saxitoxin, the principal organism--or 
the principal toxin that was isolated----
    Mr. Gilchrest. When was that year again?
    Mr. Baden. 1945, fifties.
    Mr. Gilchrest. Where was that?
    Mr. Baden. This was--actually, it was off the coast of 
British Columbia. It was done by Dr. Ed Shantz and Carl Medcof, 
and in the case of paralytic shellfish poison, it took 
something on the order of 45 milligrams of toxin to get a true 
structure characterization. In the case of the brevetoxins, 
which are the Florida redexidetoxins, done by Nakanichis' group 
at Columbia, it took 91 milligrams of brevitoxin to get enough 
material to get structure. In the case of Pfiesteria toxins, 
even in purified state, we're still dealing with microgram 
amounts, thousands of times less than we need to do a chemical 
characterization. Now, that may be a little bit puzzling, but 
if you consider that the pharmacology--the reason that we call 
these things toxins is because they kill at such low 
concentrations, then one can say that we're going to have the 
pharmacology and all of the toxicology done long before we have 
the chemical structure.
    So, a long answer to the question, and, finally, when will 
that be done? There are actually more than one toxin that are 
probably named Pfiesteria. There is the water soluble, highly 
polar material that Dr. Ramsdell from National Marine Fishery 
talked about that they're working on with the intramural 
program at NIEHS and Dr. Burkholder.
    Mr. Gilchrest. Do you think having, let's say, 50,000 fish 
killed in the Pocomoke River, I guess, doesn't give us enough 
of the toxin to be able to analyze it, but wouldn't you get 
enough of the toxin from a billion fish? There's no 
relationship there?
    Mr. Baden. Mr. Chairman, it's not necessarily associated 
with the fish. It's the concentration of the organism in toxic 
form at the time of the fish kill.
    Mr. Gilchrest. Well, that's what I mean, but then it's--I 
mean, if you have a billion fish killed, it seems to me that 
there's more than little tiny Pfiesteria out there than if you 
have 50,000 fish killed.
    Mr. Baden. Not necessarily true, and in fact----
    Mr. Gilchrest. Not necessarily true?
    Mr. Baden. Not necessarily true, and, in fact, it's the 
cultures of the organism in laboratory culture where you can 
control clonal isolates so you know what you're working with 
takes a lot of material, and we're not at that stage, but we do 
have materials that cause lesions very similar to what are seen 
in the fish in purified form. There are also compounds of these 
more highly polar materials that are, we believe, responsible 
for neurological----
    Mr. Gilchrest. So, since 1991, you've been collecting this 
material?
    Mr. Baden. Since 1991, we have been receiving extracts from 
Dr. Burkholder's laboratory and from Dr. Noga's laboratory on 
an intermittent basis in order to do that work.
    Mr. Gilchrest. But, then, are you still collecting it or 
have you done something with it?
    Mr. Baden. Mr. Chairman, in the matter of collecting if, 
each extract that is placed in our hands, we go through a 
series of purification steps, basically, throwing away non-
toxic material and amassing toxic material, and each time you 
do this, you get one step or two steps further into 
purification. Most of these purifications take 8 to 10 steps to 
yield homogeneous materials that can then be studied by 
spectroscopy which is the chemists' tools. We are nearly at 
that stage with the lipid soluble materials that come from 
Pfiesteria; the ones that cause the sores on fish.
    Mr. Gilchrest. Dr. Burkholder, do you want to comment on 
any of that? Do you have an idea when you'll have enough of 
this stuff in a jar?
    Ms. Burkholder. Well, Dr. Baden's points are well taken. 
We, however, have made a lot of progress with folks in the last 
three months in getting these toxins characterized, so it is 
beginning to proceed much faster than in the past five years.
    Mr. Gilchrest. Why is it proceeding faster in the last 
three months than it did in the last five years?
    Ms. Burkholder. I'm not really certain, because I'm not a 
toxin analyst. I think that the people at Nims Charleston's 
Marine Biotoxins Center, and, perhaps, Dr. Baden, can comment 
further on that at this time, but I know that a lot of effort 
has been poured into it by our colleagues at the biotoxins 
center, for example.
    Mr. Gilchrest. Where was that again? In Norfolk?
    Ms. Burkholder. That was in Charleston.
    Mr. Gilchrest. Charleston.
    Mr. Baden. Well, let me address that. We're now presently 
working with Dr. Ed Noga who was Dr. Burkholder's co-principle 
investigator on National Marine Fisheries Service, Saltonstall-
Kennedy grants in the past; Saltonstall-Kennedy grants that 
were aimed at studying the organism as well as looking at toxin 
structure, and it was our subcontract responsibility from those 
two agreements to work on the toxins, and so we are totally at 
the disposal of the people that supply us with extracts in 
order to do the work, and we have not simply had sufficient 
extract from Dr. Burkholder's laboratory in order to pursue 
that. We have had some better success with Dr. Noga's lab over 
the past year and are now making rapid progress in the lipid 
soluble, the other toxin that's produced by this organism. 
We're working on different materials at this point.
    Mr. Gilchrest. Dr. Burkholder?
    Ms. Burkholder. Yes, I will comment further that some of 
this seems to be a problem just in getting these toxins 
inventories properly, at least according to Dr. Baden's 
research associate, whom I spoke with in August. Some of the 
batches of toxins that we sent apparently were lost and then 
re-recovered, so they were on the bottom of a freezer or 
something like that.
    Mr. Gilchrest. Are they still good?
    Ms. Burkholder. I'm sure they are. It's just that we have 
been sending toxin through NIHS' intramural program to Dr. 
Baden, and we haven't received word back yet about what those 
toxins yield, so probably because there was some confusion 
there----
    Mr. Gilchrest. They weren't lost in the mail, were they?
    Ms. Burkholder. No, they were apparently either inventoried 
and then forgotten about or somehow put to the bottom of a 
freezer according to the research associate.
    Mr. Gilchrest. Is there sufficient communication, now, to 
avoid any----
    Ms. Burkholder. I think there is.
    Mr. Baden. Well, Mr. Chairman, we're having excellent 
communication this afternoon. Let's hope it gets better. I must 
also say that the last material that Dr. Burkholder's group has 
sent to us is currently in progress in parallel with control 
material--control, meaning non-toxic material--sent from Dr. 
Noga as well as Dr. Noga's extract. We're at the stage where we 
have non-toxic, toxic from Noga, toxic from Burkholder. Are 
they the same or are they different? In very short order, we 
will know that.
    Mr. Gilchrest. That's great. We have a vote. Did you have 
any other comment, Mike? The rest of the day's going to be a 
little bit more hectic for us, and I would really like to hold 
all of you here for a few more hours, but that may not be 
possible. I hope to remain in communication with all of you so 
we can continue to move forward and ensure that the cooperation 
and the collaboration is at the highest level that is possible 
among people trying to figure out these complex problems. 
Ladies and gentlemen, thank you all very much for coming.
    This meeting is adjourned.
    [Whereupon, at 2:23 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
Statement of Donald F. Boesch, President, University of Maryland Center 
             for Environmental Science, Cambridge, Maryland

    I am Donald Boesch, President of the University of Maryland 
Center for Environmental Science. My perspective on today's 
subject is influenced heavily by my recent or continuing 
service as chair of two scientific committees. Earlier this 
year, I led a panel of experts in the completion of a report 
entitled ``Harmful Algal Blooms in Coastal Waters: Options for 
Prevention, Control and Mitigation'' which was requested by the 
Secretaries of Interior and Commerce. More recently, I have 
been called on by Maryland Department of Natural Resources 
Secretary John Griffin, who will be speaking to you later, to 
chair a Technical Advisory Committee to advise the State's 
agencies in their assessment of our fish lesion/fish kill 
problem about which you have heard so much about.
    Although I am an ecological generalist rather than an 
expert on toxic dinoflagellates, I have learned a lot about 
these organisms over the last year from bona fide experts such 
as Dr. Burkholder, who have worked with me on these committees. 
Moreover, I work extensively in the Chesapeake Bay and in other 
parts of our country in the application of science in the 
solution of environmental problems and in guiding effective 
research. From these vantage points, I am pleased to offer my 
opinions on what is known about the effects of these toxic 
organisms, the role of human activities in stimulating them, 
and future research needs and approaches.
    The Prevention, Control and Mitigation assessment which I 
mentioned earlier focused not on the basic science needs--that 
had been done in earlier planning reports--but on what could be 
done to alleviate the ill effects of harmful algal blooms, such 
as those that cause paralytic and amnesic shellfish poisoning, 
red and brown tides, and catastrophic losses of aquacultured 
fish. Unfortunately, we did not also include Pfiesteria. I am 
providing copies of our report for the Subcommittee. Our report 
concluded that although pollution and nutrient enrichment have 
been strongly implicated in worsening harmful algal blooms in 
various parts of the world, they have not yet been 
unequivocally identified as the cause of any of the U.S. blooms 
considered in our assessment. Nontheless, we concluded that 
conscientious pursuit of goals for reduction of pollution, 
especially excess nutrients, could well yield positive results 
in terms of reductions in harmful algal blooms.
    In terms of research needs, suffice it here to say that our 
conclusions also included recommendations for issues related to 
prevention and control that should be addressed by fundamental 
research and a specific call for expanded Federal research 
directly addressing prevention, control and mitigation. Should 
include: evaluation of the effectiveness and side-effects of 
chemical, physical and biological controls; development of 
better measurements of toxins and harmful algal species for 
application in monitoring; ballast water treatment; and effects 
of chronic exposure on human health.
    Turning now to the Chesapeake, let me summarize briefly 
where we are. First, after evaluating a variety of potential 
causes of the fish lesions that were first observed in the 
Pocomoke River last fall, it now appears highly likely that 
many of these lesions, as well as the fish kills that were 
witnessed this summer, were caused by toxins released by 
Pfiesteria piscicida or one of two other dinoflagellates that 
have been identified. In addition, medical researchers have 
documented skin rashes and reduced efficiency in short term 
memory function in now over two dozen individuals exposed to 
the river water. This has raised concern by a quantum and 
resulted in a variety of steps to ensure the protection of 
public health. I am sure that Secretary Griffin will be happy 
to tell you more about this.
    The scientific team and advisors are turning their 
attention in particular to the environmental conditions that 
promote the outbreaks of toxic forms of Pfiesteria-like 
organisms, not only so that we can predict where they may occur 
and appropriately protect the public, but that we can better 
control human activities that may stimulate them. As you know, 
nutrient over enrichment, particularly from agricultural 
sources, has been suspected. Maryland Governor Parris 
Glendening has charged a Blue Ribbon Citizens Pfiesteria 
Commission to recommend steps that can be taken to reduce the 
risks of Pfiesteria. More effective controls of nutrient losses 
from agricultural activities, including the disposition of 
poultry manure, are among the principal issues under review. 
Environmental and agricultural scientists from University of 
Maryland institutions are presently working with the Commission 
to develop scientific consensus regarding the relationships 
between nutrients and Pfiesteria-like organisms, review the 
effectiveness of present nutrient and waste management 
strategies, and lay out for the Commission potential improved 
strategies.
    I believe that Dr. Burkholder would agree that we are still 
on the early part of the Pfiesteria learning curve. Her 
contributions have been truly monumental, but we have only had 
a small group of scientists working for about six years on 
these extremely complex organisms. With a stronger case now 
made because of documented health concerns and the greater 
number of regions potentially affected--not to mention the 
heightened national concern represented by media attention--
clearly more research is required. And, there is certainly a 
major Federal responsibility for this research. I urge that 
Congress insist that it: is strategic in that research programs 
emphasize the most critical question; is integrated across 
agencies and disciplines; incorporates high standards of 
scientific quality and peer review; and is accountable in what 
will be expected to lead to clearer understanding and, to the 
extent possible, solutions.
    From the perspective of Maryland's Technical Advisory 
Committee (which, by the way, includes experts from the 
Carolinas and Virginia) the environmental research priorities 
are: (1) resolving the relationship between land-based 
pollution, particularly by excess nutrients, and Pfiesteria-
like organisms on scales from the cell to the watershed; (2) 
developing modern molecular methods for detection and 
quantification of toxins and organisms; (3) determining the 
effects of these toxic dinoflagellates on fish and shellfish 
populations (i.e. going beyond the effects on the health of an 
individual fish); and (4) determining the degree to which 
toxins may be retained in fish and shellfish tissues. In 
addition, of course, there are additional priorities for health 
and agricultural research.
    In my opinion, an effective mechanism already exists for 
the support, direction and coordination of the needed 
environmental research in the form of the NOAA-led program on 
the Ecology and Oceanography of Harmful Algal Blooms (ECOHAB). 
ECOHAB has already developed research strategies dealing with 
other harmful algal species based on planning by the scientific 
community. It is broadly focused and integrated, incorporating 
approaches from molecules to water circulation to ecosystems. A 
number of agencies already participate in ECOHAB, including 
EPA, the Office of Naval Research and the National Science 
Foundation, in addition to NOAA. And, ECOHAB has an in-place 
management and review structure that accommodates the 
participation of both university and Federal-laboratory based 
scientists.
    Finally, I am pleased that the Federal agencies are 
preparing a coordinated response plan related to Pfiesteria. It 
is important that the appropriate health, environmental, and 
agricultural agencies be involved and that their contributions 
are in balance and in collaboration. Similarly, the university 
research community in the affected Mid-Atlantic and 
southeastern states includes incalculable talent; physical 
capabilities; experience with coastal environments, 
communities, and fishing and agricultural enterprises; and 
working relationships with the states. My colleagues and I not 
only stand ready to contribute these intellectual and physical 
resources, but also have been leading in the development of 
creative scientific strategies to address the problems. We look 
forward to working closely and cooperatively with the Federal 
agencies toward these ends.
                                ------                                


                  Statement of Daniel G. Baden, Ph.D.

    I would like to express my gratitude to the Subcommittee 
for giving me this opportunity to address issues relating to 
the status of Federal and State research into Harmful Algal 
Blooms and in this context, to outbreaks of Pfeisteria.
    Toxic marine phytoplankton are responsible for ``red 
tides'' or ``harmful algal blooms'' (HAB). HABs occur in 
virtually all coastal areas of temperate and tropical seas, and 
are responsible for five known types of seafood poisoning in 
man. Specific HAB incidents are often geographically localized 
but their occurrence is sporadic. As I speak, in addition to 
the Pfeisteria and other fish killer HABs in the mid-Atlantic 
region, Texas and other states on the Gulf of Mexico are 
experiencing Florida red tide outbreaks. These red tides are 
notorious for tons of dead fish per day per mile of coastline. 
All HABs are natural events induced or permitted by specific 
environmental conditions.
    HABs are also implicated in mass marine mortalities known 
as epizootics. In the past 20 years red tide toxins have been 
implicated in the deaths of bottlenose dolphins in Hawaii, 
manatees in Florida, pilot whales in the Northeast U.S., 
pelicans on the U.S. West coast, cormorants and gannets 
(seabirds) on the East coast of the U.S., fish along the entire 
Gulf of Mexico coastline and also stretching from the Carolinas 
up to and including Maryland coastal zones. More tenuous links 
to HABs have been suggested for bottlenose dolphin mortalities 
on the Atlantic seaboard, sea turtles in the Gulf of Mexico and 
Hawaii, and monk seals in the Mediterranean Sea. As 
``sentinel'' or indicator species in the oceans, marine animals 
are akin to the canaries taken into mine shafts--their death or 
sickness is an indication of the degradation of local 
environmental conditions.
    Questions concerning environmental parameters conducive to 
HAB development, maintenance, and termination test our 
oceanographic knowledge base. Questions concerning our ability 
to detect and/or predict blooms as they develop address 
components of marine biotechnology, coastal zone nutrient 
loads, and life cycle biology. Questions concerning effects on 
marine animals touch on aspects of biomedical research (that is 
using diagnostics and therapeutics developed for treating human 
HAB exposures), detection technologies, and whole animal 
physiology.
    Federal and State programs that address each of these 
research questions individually are currently in place, but 
holistic research that addresses the interface between research 
areas is lacking. Thus, Departments of Commerce, Defense, 
Health and Human Services, and Agriculture need to coordinate 
with one another and develop partnership funding strategies. 
All appropriate agencies should be involved.
    Likewise, basic scientists, clinicians, oceanographers, 
ecologists and taxonomists all must develop better ways of 
interaction and communication, essentially by developing 
interdisciplinary approaches to their science. In other words, 
those activities that are land-oriented and those that are 
ocean or aquatic-oriented need to be coordinated in the coastal 
zone. Over half of the U.S. population resides within 50 miles 
of a coastline. It is in the coastal zone that HABs occur, that 
marine animal deaths have been documented, and that coastal 
nutrients are changing. Over the past decade, several dynamic 
interdisciplinary approaches to harmful algal bloom science 
have developed. But the coordinated multiagency funding 
packages have not kept pace with the interdisciplinary nature 
of the science.
    Harmful algal blooms produce some of the most potent toxins 
known to man, potencies only exceeded by the more familiar 
protein toxins, like botulism toxins. HAB organisms are often 
toxic throughout their life cycle. There are of course 
exceptions like Pfeisteria that exhibit toxic phases. Because 
of their high intrinsic toxicity, exceedingly small amounts are 
required to induce lethality. Even smaller quantities may be 
accumulated and cause sub-lethal metabolic and/or neurotoxic 
abnormalities. In the area of sub-acute toxicological effects, 
we need more research to completely define the consequences of 
exposure, to understand the toxic mechanisms at the molecular 
level, to design antidotes or therapies, and ultimately to 
develop preventative strategies for man and animal alike. This 
is an interdisciplinary area that should be addressed by NIH, 
NSF and DOC.
    We need more research directed at HAB initiation, 
progression, and termination. Concurrently, it is essential we 
develop testing methods and other tools that can accurately 
measure the numbers of HAB organisms at the beginning of a 
bloom. We currently know so little about triggering or 
sustaining factors that this is an area of active interest in 
all regions of the U.S. As many as 20 different marine 
microorganisms produce HABs, and each has individual ecological 
requirements. Factors beneficial to one species may be 
detrimental or inconsequential to yet another species. Much of 
this work is done at the State levels, traditionally related to 
seafood safety issues. There is a need here for Federal/State 
partnerships for research and information sharing. There is a 
decided need for specialized programs for development of test 
kits, perhaps by partnership with the biotechnology industry.
    We need to develop testing protocols that can measure toxin 
movement through food chains, and within the organs and tissues 
of exposed animals. Without this information, it is impossible 
to precisely measure the total ecological consequences of HAB 
events. In addition, with the implementation of the Hazard 
Analysis Critical Control Point (HACCP) program for seafood in 
December of 1997, there is a desperate need for bringing all 
tests into use and certification.
    We already know a great deal about how much and what types 
of toxin in seafood produce illness in man. We surmise, 
therefore, that any animal that consumes the same seafood is 
also subject to attack by the neurotoxins. Tests, therapeutics, 
and diagnostics developed by DOD and DHHS for humans have great 
potential for marine animals as well. One classic example of 
this cross-fertilization is the work done in Florida on the 
1996 manatee epizootic. Diagnostic and analytical methods for 
brevetoxin detection in human biological fluids, developed 
using NIEHS funds awarded to the University of Miami Center, 
were used to precisely measure the amounts of brevetoxin 
present in tissue samples. This work was done in conjunction 
with marine mammal pathologists from the State of Florida. As a 
result of the study, a new analytical immunocytochemical test 
was developed; a test that may prove of value in precisely 
quantifying human illness or for seafood testing programs.
    Informatics is extremely important in all of these research 
areas, and a detailed set of databases should be established, 
beginning with a survey of the databases already available. 
This can be done electronically, much in the same way as the 
current human genome project. This area is important for 
funding. Federal programs that address informatics should 
certainly play a great role in this endeavor.
    Finally, stable funding for the science, in academic 
laboratories and at the State and Federal level, is necessary 
so that we can produce rapid response teams to address pressing 
HAB problems. It often seems that funding runs about 9 months 
behind toxic events, and universities are increasingly 
reluctant to provide the fiscal support to carry out rapid 
response projects.
    I again would like to thank the Subcommittee for the 
invitation to address these issues. I hope my testimony has 
provided information that will assist you in your 
deliberations.

[GRAPHIC] [TIFF OMITTED] T6477.001

[GRAPHIC] [TIFF OMITTED] T6477.002

[GRAPHIC] [TIFF OMITTED] T6477.003

[GRAPHIC] [TIFF OMITTED] T6477.004

[GRAPHIC] [TIFF OMITTED] T6477.005

[GRAPHIC] [TIFF OMITTED] T6477.006

[GRAPHIC] [TIFF OMITTED] T6477.007

[GRAPHIC] [TIFF OMITTED] T6477.008

[GRAPHIC] [TIFF OMITTED] T6477.009

[GRAPHIC] [TIFF OMITTED] T6477.010

[GRAPHIC] [TIFF OMITTED] T6477.011

[GRAPHIC] [TIFF OMITTED] T6477.012

[GRAPHIC] [TIFF OMITTED] T6477.013

[GRAPHIC] [TIFF OMITTED] T6477.014

[GRAPHIC] [TIFF OMITTED] T6477.015

[GRAPHIC] [TIFF OMITTED] T6477.016

[GRAPHIC] [TIFF OMITTED] T6477.017

[GRAPHIC] [TIFF OMITTED] T6477.018

[GRAPHIC] [TIFF OMITTED] T6477.019

[GRAPHIC] [TIFF OMITTED] T6477.020

[GRAPHIC] [TIFF OMITTED] T6477.021

[GRAPHIC] [TIFF OMITTED] T6477.022

[GRAPHIC] [TIFF OMITTED] T6477.023

[GRAPHIC] [TIFF OMITTED] T6477.024

[GRAPHIC] [TIFF OMITTED] T6477.025

[GRAPHIC] [TIFF OMITTED] T6477.026

[GRAPHIC] [TIFF OMITTED] T6477.027

[GRAPHIC] [TIFF OMITTED] T6477.028

[GRAPHIC] [TIFF OMITTED] T6477.029

[GRAPHIC] [TIFF OMITTED] T6477.030

[GRAPHIC] [TIFF OMITTED] T6477.031

[GRAPHIC] [TIFF OMITTED] T6477.032

[GRAPHIC] [TIFF OMITTED] T6477.033

[GRAPHIC] [TIFF OMITTED] T6477.034

[GRAPHIC] [TIFF OMITTED] T6477.035

[GRAPHIC] [TIFF OMITTED] T6477.036

[GRAPHIC] [TIFF OMITTED] T6477.037

[GRAPHIC] [TIFF OMITTED] T6477.038

[GRAPHIC] [TIFF OMITTED] T6477.039

[GRAPHIC] [TIFF OMITTED] T6477.040

[GRAPHIC] [TIFF OMITTED] T6477.041

[GRAPHIC] [TIFF OMITTED] T6477.042

[GRAPHIC] [TIFF OMITTED] T6477.043

[GRAPHIC] [TIFF OMITTED] T6477.044

[GRAPHIC] [TIFF OMITTED] T6477.045

[GRAPHIC] [TIFF OMITTED] T6477.046

[GRAPHIC] [TIFF OMITTED] T6477.047

[GRAPHIC] [TIFF OMITTED] T6477.048

[GRAPHIC] [TIFF OMITTED] T6477.049

[GRAPHIC] [TIFF OMITTED] T6477.050

[GRAPHIC] [TIFF OMITTED] T6477.051

[GRAPHIC] [TIFF OMITTED] T6477.052

[GRAPHIC] [TIFF OMITTED] T6477.053

[GRAPHIC] [TIFF OMITTED] T6477.054

[GRAPHIC] [TIFF OMITTED] T6477.055

[GRAPHIC] [TIFF OMITTED] T6477.056

[GRAPHIC] [TIFF OMITTED] T6477.057

[GRAPHIC] [TIFF OMITTED] T6477.058

[GRAPHIC] [TIFF OMITTED] T6477.059

[GRAPHIC] [TIFF OMITTED] T6477.060

[GRAPHIC] [TIFF OMITTED] T6477.061

[GRAPHIC] [TIFF OMITTED] T6477.062

[GRAPHIC] [TIFF OMITTED] T6477.063

[GRAPHIC] [TIFF OMITTED] T6477.064

[GRAPHIC] [TIFF OMITTED] T6477.065

[GRAPHIC] [TIFF OMITTED] T6477.066

[GRAPHIC] [TIFF OMITTED] T6477.067

[GRAPHIC] [TIFF OMITTED] T6477.068

[GRAPHIC] [TIFF OMITTED] T6477.069

[GRAPHIC] [TIFF OMITTED] T6477.070

[GRAPHIC] [TIFF OMITTED] T6477.071

[GRAPHIC] [TIFF OMITTED] T6477.072

[GRAPHIC] [TIFF OMITTED] T6477.073

[GRAPHIC] [TIFF OMITTED] T6477.074

[GRAPHIC] [TIFF OMITTED] T6477.075

[GRAPHIC] [TIFF OMITTED] T6477.076

[GRAPHIC] [TIFF OMITTED] T6477.077

[GRAPHIC] [TIFF OMITTED] T6477.078

[GRAPHIC] [TIFF OMITTED] T6477.079

[GRAPHIC] [TIFF OMITTED] T6477.080

[GRAPHIC] [TIFF OMITTED] T6477.081

[GRAPHIC] [TIFF OMITTED] T6477.082

[GRAPHIC] [TIFF OMITTED] T6477.083

[GRAPHIC] [TIFF OMITTED] T6477.084

[GRAPHIC] [TIFF OMITTED] T6477.085

[GRAPHIC] [TIFF OMITTED] T6477.086

[GRAPHIC] [TIFF OMITTED] T6477.087

[GRAPHIC] [TIFF OMITTED] T6477.088

[GRAPHIC] [TIFF OMITTED] T6477.089

[GRAPHIC] [TIFF OMITTED] T6477.090

[GRAPHIC] [TIFF OMITTED] T6477.091

[GRAPHIC] [TIFF OMITTED] T6477.092

[GRAPHIC] [TIFF OMITTED] T6477.093

[GRAPHIC] [TIFF OMITTED] T6477.094

[GRAPHIC] [TIFF OMITTED] T6477.095

[GRAPHIC] [TIFF OMITTED] T6477.096

[GRAPHIC] [TIFF OMITTED] T6477.097

[GRAPHIC] [TIFF OMITTED] T6477.098

[GRAPHIC] [TIFF OMITTED] T6477.099

[GRAPHIC] [TIFF OMITTED] T6477.100

[GRAPHIC] [TIFF OMITTED] T6477.101

[GRAPHIC] [TIFF OMITTED] T6477.102

[GRAPHIC] [TIFF OMITTED] T6477.103

[GRAPHIC] [TIFF OMITTED] T6477.104

[GRAPHIC] [TIFF OMITTED] T6477.105

[GRAPHIC] [TIFF OMITTED] T6477.106

[GRAPHIC] [TIFF OMITTED] T6477.107

[GRAPHIC] [TIFF OMITTED] T6477.108

[GRAPHIC] [TIFF OMITTED] T6477.109

[GRAPHIC] [TIFF OMITTED] T6477.110

[GRAPHIC] [TIFF OMITTED] T6477.111

[GRAPHIC] [TIFF OMITTED] T6477.112

[GRAPHIC] [TIFF OMITTED] T6477.113

[GRAPHIC] [TIFF OMITTED] T6477.114

[GRAPHIC] [TIFF OMITTED] T6477.115

[GRAPHIC] [TIFF OMITTED] T6477.116

[GRAPHIC] [TIFF OMITTED] T6477.117

[GRAPHIC] [TIFF OMITTED] T6477.118

[GRAPHIC] [TIFF OMITTED] T6477.119

[GRAPHIC] [TIFF OMITTED] T6477.120

[GRAPHIC] [TIFF OMITTED] T6477.121

[GRAPHIC] [TIFF OMITTED] T6477.122

[GRAPHIC] [TIFF OMITTED] T6477.123

[GRAPHIC] [TIFF OMITTED] T6477.124

[GRAPHIC] [TIFF OMITTED] T6477.125

[GRAPHIC] [TIFF OMITTED] T6477.126

[GRAPHIC] [TIFF OMITTED] T6477.127

[GRAPHIC] [TIFF OMITTED] T6477.128

[GRAPHIC] [TIFF OMITTED] T6477.129

[GRAPHIC] [TIFF OMITTED] T6477.130

[GRAPHIC] [TIFF OMITTED] T6477.131

[GRAPHIC] [TIFF OMITTED] T6477.132

[GRAPHIC] [TIFF OMITTED] T6477.133

[GRAPHIC] [TIFF OMITTED] T6477.134

[GRAPHIC] [TIFF OMITTED] T6477.135

[GRAPHIC] [TIFF OMITTED] T6477.136

[GRAPHIC] [TIFF OMITTED] T6477.137

[GRAPHIC] [TIFF OMITTED] T6477.138

[GRAPHIC] [TIFF OMITTED] T6477.139

[GRAPHIC] [TIFF OMITTED] T6477.140

[GRAPHIC] [TIFF OMITTED] T6477.141

[GRAPHIC] [TIFF OMITTED] T6477.142

[GRAPHIC] [TIFF OMITTED] T6477.143

[GRAPHIC] [TIFF OMITTED] T6477.144


</pre></body></html>
